<html>
<title> - FLYING BLIND: WHAT ARE THE SECURITY RISKS OF RESUMING U.S. COMMERCIAL AIR SERVICE TO CUBA?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 FLYING BLIND: WHAT ARE THE SECURITY RISKS OF RESUMING U.S. COMMERCIAL 
                          AIR SERVICE TO CUBA?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________

                           Serial No. 114-70

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


             Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISING OFFICE
22-763 PDF                WASHINGTON : 2016                    

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  
                              
                               
                               
                               
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                 Kristopher Carlson, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     5
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security........................................     7
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10

                               Witnesses

Mr. Seth Stodder, Assistant Secretary of Homeland Security, 
  Border, Immigration, and Trade Policy, U.S. Department of 
  Homeland Security; Accompanied by Larry Mizell, TSA 
  Representative, Transportation Security Adminstration, U.S. 
  Department of Homeland Security; Paul Fujimura, Assistant 
  Administrator, Office of Global Strategies, U.S. Department of 
  Homeland Security; and John Wagner, Deputy Executive Assistant 
  Commissioner, Customs and Border Protection, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement.......................................    13
Mr. Kurt Tong, Principal Deputy Assistant Secretary, Bureau of 
  Economic and Business Affairs, U.S. Department of State:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                             For the Record

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Article........................................................     3

                                Appendix

Questions From Chairman John Katko for Seth Stodder..............    41
Question From Chairman John Katko for Larry Mizell...............    41
Questions From Chairman John Katko for Paul Fujimura.............    41
Question From Chairman John Katko for John Wagner................    43
Question From Chairman John Katko for Kurt Tong..................    48

 
 FLYING BLIND: WHAT ARE THE SECURITY RISKS OF RESUMING U.S. COMMERCIAL 
                          AIR SERVICE TO CUBA?

                              ----------                              


                         Tuesday, May 17, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Transportation Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko, McCaul, Carter, Rice, and 
Thompson.
    Also present: Representative Perry.
    Mr. Katko. The Committee on Homeland Security will come--
Subcommittee on Transportation Security will come to order. The 
subcommittee is meeting today to examine the risks involved in 
resuming U.S. commercial air service to Cuba.
    I now recognize myself for an opening statement.
    On February 16, U.S. and Cuban officials signed an accord 
which will allow more than 100 daily round-trip flights between 
the United States and the country of Cuba. As has been the 
practice of this administration, the deal was signed with 
minimal consultation or input from Congress.
    In fact, countless attempts by this committee to attain 
information about various aspects of the negotiations and 
requirements to begin regularly-scheduled commercial service to 
Cuba have been stonewalled.
    Despite having been briefed numerous times by components of 
the Department prior to this hearing, I learned only yesterday 
from a press release that on May 5, Deputy Secretary Alejandro 
Mayorkas signed a memorandum of understanding with the Cuban 
government that has far-reaching implications for the 
Department of Homeland Security.
    The administration's lack of transparency on this issue is 
unacceptable and leads me to believe that the administration is 
either hiding something or, worse, simply negligent of the 
security concerns associated with this policy.
    Immediately following the signing of the February 16 
agreement, the Department of Transportation opened the 
application process for U.S. air carriers to bid on routes for 
regularly-scheduled commercial air service to all 10 of Cuba's 
international airports. After a 54-year freeze in diplomatic 
relations, the administration is attempting to designate these 
10 Cuban airports as last points of departure, or LPDs, to the 
United States as early as late summer this year.
    Only 7 other foreign countries in the world have 10 or more 
LPD airports to the United States. They include some of our 
closest allies and trading partners, such as the United 
Kingdom, Canada, and Mexico.
    China, with an estimated 1.3 billion people and the third-
largest country in the world by land mass, has only 11 LPD 
airports to the United States. But the administration wants to 
designate 10 airports of LPD stature to Cuba, a country that 
could fit into China over 127 times, and a country whose 
population is less than 1 percent that of China.
    In a briefing on March 17, officials from TSA stated their 
intention to certify 3 additional airports in Cuba as LPDs by 
late summer. The picture officials of TSA paint of the security 
situation at Cuba's airports is indeed bleak.
    Cuba possesses no explosive trace detection equipment. Let 
me repeat that: They do not have any explosive trace detection 
equipment at their airports.
    The bomb-sniffing dogs are poorly trained at best and have 
been described by some as, ``mangy street dogs.''
    The only 2 full-body scanners on the entire island are in 
Havana, which means that the 9 other airports in question will 
not have body scanners. These scanners are Chinese-made, as is 
almost all of the security equipment the Cubans possess, and we 
have no idea as to whether they work at all, or how they work, 
or how well they work.
    To make matters worse, it is not even clear whether Federal 
air marshals will even be allowed to be on these flights.
    TSA could offer no information on the security training, if 
any, that airport officials receive and were unaware if airport 
workers are vetted for potential links to terrorism. Given the 
continued U.S. embargo, the administration is prohibited from 
supplying any security equipment or offering training to the 
Cuban government.
    Additionally, TSA predicted that with the introduction of 
commercial air service, passenger volume would increase 
exponentially to a level that Cuban authorities and airport 
infrastructure are simply unprepared and perhaps unable to 
handle.
    If the status quo remains the same, the Cuban government 
will not allow U.S. airlines to hire their own personnel to 
perform basic functions, such as ticketing and check-in, or 
more complex functions, such as airline security operations, at 
the airports in Cuba. Instead, employees of the Cuban 
government--employees of the Cuban government instead of the 
commercial airlines may be the ones doing all of these tasks.
    Even though earlier this year Lieutenant General Stewart, 
the director of the Defense Intelligence Agency, testified 
before the Senate Armed Services Committee, ``Cuba also remains 
a critical counterintelligence threat,'' but the administration 
is telling us that we should entrust the safety and security of 
American citizens to the Cuban government--a country that was 
just removed from the state sponsors of terrorism list 1 year 
ago on May 29; a country whose leaders have repeatedly derided 
the values and principles for which our great Nation stands. 
This is, to say the least, unsettling.
    Historically, flights to and from Cuba have been attractive 
targets for terrorists and hijackers. In May 2007 2 armed Cuban 
soldiers went AWOL, hijacked a public bus which it ran through 
the airport perimeter in Havana, and attempted to hijack a 
plane bound for Miami. Two Cuban passenger flights were 
hijacked to the United States within 2 weeks in 2003. There are 
other examples, and I could go on.
    These types of incidents, which have occurred far too many 
times in recent history, raise serious concerns about the 
ability and the willingness of Cuban officials to take airport 
security and passenger screening seriously.
    To make matters even more concerning, on April 17 the 
Washington Post published an article on the increased flow of 
individuals from Afghanistan traveling to Cuba. The article 
states that, ``Travel agents in Kabul have been surprised by 
Afghans showing up at their offices with Cuban visas, which are 
suspected of having been issued in Iran or acquired on the 
black market.'' It is suspected they use Cuba as a gateway into 
the United States or Canada.
    Without objection, I ask unanimous consent that this 
article be inserted into the record.
    [The information follows:]
                  Article Submitted by Chairman Katko
    Kabul Libre! One new Afghan trail to the West goes through Cuba.
By Tim Craig, April 17.
    KABUL.--With roads to Europe increasingly blocked by strict border 
controls, Afghans hoping to flee war and economic peril are desperately 
searching for new escape routes by way of refugee camps in India, 
airports in Russia and even the beaches of Cuba.
    The shifting travel plans--which are also seeing Afghans attempting 
to buy their way into Europe before leaving Kabul, through the purchase 
of visas--may signal the next phase in a migration crisis that is 
rattling world leaders and draining Afghanistan of its workforce.
    After a year in which hundreds of thousands of Afghans poured into 
Europe by land, more migrants are now trying to skirt hostile border 
agents and dangerous boat trips by flying to their destinations. As a 
result, although human smuggling was a booming industry in Afghanistan 
last year, criminal rackets that trade in--visas may be reaping a 
windfall this year.
    ``People now are not willing to take great risks,'' said Tamin 
Omarzi, who works as a travel agent in Kabul's largest mall. ``They 
want to just travel with a passport, and don't come back.''
    Last year, along with more than 1 million refugees from Syria and 
Iraq, about 250,000 Afghans journeyed to Europe in hopes of securing 
asylum there. Many traveled through Iran and Turkey before crossing the 
Aegean Sea to Greece.
    Overwhelmed by the influx, European leaders have shown less 
sympathy for Afghans than for refugees from Syria and Iraq. Much of 
Afghanistan, they note, remains under the control of a Western-backed 
government.
    Last month, the European Union reached a deal with Turkey to send 
migrants back to refugee camps there, effectively severing the land 
route to Europe.
    Since then, travel agents in Kabul report that requests for visas 
to Iran and Turkey are down by as much as 80 percent compared with last 
year at this time. A United Nations report released Thursday also 
concluded that the flow of migrants from Afghanistan has slowed while 
``people reconsider destinations and subsequent optimal routes.''
    ``There is currently lower movement but no dropoff in the people 
wanting to go,'' said Alexander Mundt, assistant representative for 
protection at the U.N. refugee agency. ``They are just exploring their 
options, their means and the right moment to go.''
    Plenty of Afghans are still on the move, however, in a mass 
migration that is raising new challenges for immigration agencies 
across the world.
    Sulaiman Sayeedi, a travel agent in Kabul's middle-class Wazir 
Akbar Khan neighborhood, said there has been a surge in demand for 
flights to India, Indonesia, and Central Asian countries such as 
Tajikistan and Uzbekistan.
    Once they arrive, Afghan travelers often claim refugee status with 
the United Nations in hopes of being resettled. In India, for example, 
Afghan asylum applications have doubled in recent months, according to 
Mundt.
    Other Afghans are flying to Moscow, believing that from there they 
can cross into Ukraine or even Belarus and then move onward to E.U. 
countries.
    ``Some people are coming in and just asking for tickets to anywhere 
they can get to,'' Sayeedi said. ``They just want a better life, a more 
civilized, modern life.''
    To achieve that in the United States or Canada, Afghans may make 
Cuba their gateway to the Western Hemisphere.
    Over the past 2 months, travel agents in Kabul have been surprised 
by Afghans showing up at their offices with Cuban visas, which are 
suspected of having been issued in Iran or acquired on the black 
market.
    ``Ten or 15 people have come just since January asking for tickets 
for Cuba,'' Sayeedi said. ``And they are not staying there. The only 
option is to move forward, probably on to Mexico and then America or 
Canada.''
    Other agents in Kabul also report a spike in interest in Cuba, and 
U.N. officials in the northern Afghan city of Kunduz say they recently 
encountered a family with Cuban visas. Havana has been a way station in 
the past for South Asians hoping to transit to Central America and from 
there to the United States.
    Besides Cuba, some Afghans are attempting to land in South America, 
either to seek residency there or make the trip north toward the U.S.-
Mexico border.
    Rahimihi, a travel agent in Kabul's central Shar-e Naw district, 
recently booked flights for relatives who had obtained visas for 
Ecuador, as well as transit visas through Brazil.
    ``They first had to go to Pakistan to get the transit visa [from 
the Brazilian Embassy], and then left two weeks ago,'' said Rahimihi, 
who, like many Afghans, uses only one name. ``They want to go to 
Canada.''
    But central and northern European countries remain Afghans' 
preferred destinations, reflecting the widely held belief here that 
Germany, Norway and Sweden are the most welcoming toward refugees.
    Mohammad Unus has been deported from both Italy and Turkey over the 
past two years while attempting to reach Germany. Now, for his third 
attempt, he's working with a local travel agent.
    ``Since Ashraf Ghani became president, all the people want to 
escape from Afghanistan,'' Unus said, reflecting widespread concern 
here that Ghani's promised economic reforms haven't materialized. 
``I've already spent $40,000 trying to get to Europe, and now I plan to 
sell my house to get there if I have to this time.''
    Such desperation is fueling the shady enterprise of visa dealing on 
the streets of Kabul.
    According to travel agents, Afghans are now paying dealers $15,000 
to $25,000 to obtain a ``Schengen visa''--a reference to countries that 
are part of the Schengen Agreement, which was drawn up to allow 
unrestricted movement among 26 European nations. The business continues 
even though seven of those nations, including Germany and Sweden, have 
re-imposed temporary border controls.
    The visa dealers work directly with rogue staffers at European 
embassies who issue the visas for a kickback, the agents claim.
    ``You never know who is doing it on the inside, but it's someone 
with a soft heart who is approving these documents,'' said Peer-
Muhammad Roheen, managing director of Air Gateway Travel and Tours in 
Kabul.
    One travel broker, who spoke on the condition of anonymity to 
discuss his sensitive business, said Afghans even with modest means are 
now turning to visa dealers because ``people now prefer to go by air to 
Europe directly.''
    ``If you got good contacts inside the embassy, you can get it done 
in one week,'' the broker said.
    When visa dealers fail to obtain valid visas, they sometimes turn 
to even more elaborate schemes, according to travel agents.
    Legal residents of Europe, for example, are being paid to travel to 
Afghanistan or Pakistan and then give their passports to Afghans with 
similar physical characteristics, said Mustafa, a travel agent in 
southwest Kabul who also uses only one name. The person who gives up 
the passport then claims it was lost or stolen.
    ``People will pay, and those short on cash will sell anything they 
have,'' Mustafa said.
    But U.N. officials question how many Afghans will be able to afford 
expensive options for fleeing.
    ``The people with that kind of money to spend are already gone,'' 
Mundt said, adding that many of those now trying to flee are poor and 
middle-class families. ``They may still have some means, but maybe 
$6,000 to invest and not $20,000.''
    The recent outflow of wealth and talent from Afghanistan has 
alarmed Ghani, who has been urging Afghans to stay home.
    But until stability returns, travel agents expect to stay busy 
planning one-way trips.
    ``For survival, people will do anything,'' said Roheen, who 
estimates that 30 percent of urban Afghan youths hope to leave the 
country. ``If they encounter a problem, then they will just try another 
option.''
    Sayed Salahuddin contributed to this report.

    Mr. Katko. What this article reflects is truly frightening, 
given the fact that Cuba currently has zero document 
verification machines at any of its airports. They do not have 
any electronic means of trying to verify whether any of the 
documents being presented to them are, in fact, what they 
purport to be and authentic.
    So there you have it. These are the concerns, and they are 
multifaceted and serious.
    We are here today not to elaborate on the merits of the 
administration's rapprochement with Cuba, but to take a serious 
look, as is our job, at the National security implications of a 
policy that has been pushed through at breakneck speed with 
seemingly minimal regard for the security and safety of the 
American people.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                              May 17, 2016
    On February 16, U.S. and Cuban officials signed an accord which 
will allow more than 100 daily round-trip flights between the United 
States and Cuba. As has been the practice of this administration, the 
deal was signed with minimal consultation or input from Congress.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    In fact, countless attempts by this committee to attain information 
about various aspects of the negotiations and requirements to begin 
regularly scheduled commercial service to Cuba have been stonewalled. 
Despite having been briefed numerous times by components of the 
Department prior to this hearing, I learned only yesterday from a press 
release that on May 5 Deputy Secretary Alejandro Mayorkas signed a 
Memorandum of Understanding with the Cuban government that has far-
reaching implications for DHS. The administration's lack of 
transparency on this issue is unacceptable, and leads me to believe 
that the administration is either hiding something, or worse, simply 
negligent of the security concerns associated with this policy.
    Immediately following the signing of the February 16 agreement, the 
Department of Transportation opened the application process for U.S. 
air carriers to bid on routes for regularly scheduled commercial air 
service to all 10 of Cuba's international airports. After a 54-year 
freeze in diplomatic relations, the administration is attempting to 
designate these 10 Cuban airports as last points of departure, or LPDs, 
to the United States.
    Only 7 other foreign countries in the world have 10 or more LPD 
airports to the United States. This includes some of our closest allies 
and trading partners, such as the United Kingdom, Canada, and Mexico. 
China, with an estimated 1.3 billion people and the third-largest 
country in the world by land mass, has only 11 LPD airports. But the 
administration wants to designate 10 LPD airports in Cuba. Cuba, a 
country that could fit into China over 127 times. A country whose 
population is less than 1 percent that of China.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    In a briefing on March 17, officials from TSA stated their 
intention to certify 3 additional airports in Cuba as LPDs by late 
summer. The picture officials from TSA paint of the security situation 
at Cuba's airports is bleak. Cuba possesses no explosive trace 
detection equipment. The bomb sniffing dogs are poorly trained at best. 
The only 2 full-body scanners on the entire island are in Havana. These 
body scanners are Chinese-made, as is almost all of the security 
equipment the Cubans possess. TSA could offer no information on the 
security training, if any, that airport officials receive, and were 
unaware if airport workers are vetted for potential links to terrorism. 
Given the continued U.S. embargo, the administration is prohibited from 
supplying any security equipment or offering training to the Cuban 
government.
    Additionally, TSA predicted that with the introduction of 
commercial air service, passenger volume would increase to a level that 
Cuban authorities and airport infrastructure are unprepared and perhaps 
unable to handle.
    If the status quo remains the same, the Cuban government will not 
allow U.S. airlines to hire their own personnel to perform basic 
functions--such as ticketing and check in--or more complex functions--
such as airline security operations--at the airports in Cuba. Instead, 
employees of the Cuban government perform all of these duties. Even 
though earlier this year, Lt. General Stewart, the Director of the 
Defense Intelligence Agency, testified before the Senate Armed Services 
Committee, ``Cuba also remains a critical counterintelligence threat.''
    But the administration is telling us that we should entrust the 
safety and security of American citizens to the Cuban government. A 
country that was just removed from the state sponsors of terrorism list 
1 year ago on May 29. A country whose leaders have repeatedly derided 
the values and principles for which our great Nation stands. This is 
unsettling to say the least.
    Historically, flights to and from Cuba have been attractive targets 
for terrorists and hijackers. In May 2007 2 armed Cuban soldiers who 
went AWOL hijacked a public bus which they ran through the airport 
perimeter in Havana in an attempt to hijack a plane bound for Miami.\1\ 
Two Cuban passenger flights were hijacked to the United States within 2 
weeks in 2003.\2\ I could go on. These types of incidents, which have 
occurred far too many times in recent history, raise serious concerns 
about the ability and the willingness of Cuban officials to take 
airport security and passenger screening seriously.
---------------------------------------------------------------------------
    \1\ http://www.cbsnews.com/news/cuban-fugitives-try-to-hijack-
plane/.
    \2\ http://www.cnn.com/2003/WORLD/americas/04/01/cuba.hijacking/.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    To make matters even more concerning, on April 17, the Washington 
Post published an article on the increased flow of individuals from 
Afghanistan traveling to Cuba. The article states that ``travel agents 
in Kabul have been surprised by Afghans showing up at their offices 
with Cuban visas, which are suspected of having been issued in Iran or 
acquired on the black market.'' It is suspected that they use Cuba as a 
gateway into the United States or Canada.\3\ Without objection, I ask 
unanimous consent that this article be inserted into the record.
---------------------------------------------------------------------------
    \3\ https://www.washingtonpost.com/world/asia_pacific/kabul-libre-
one-new-afghan-trail-to-the-west-goes-throughcuba/2016/04/16/da214926-
0188-11e6-8bb1-f124a43f84dc_story.html.
---------------------------------------------------------------------------
    So there you have it. These are the concerns and they are 
multifaceted and serious. We are here today, not to debate the merits 
of the administration's rapprochement with Cuba, but to take a serious 
look at the National security implications of a policy that has been 
pushed through at a break-neck speed, with seemingly minimal regard for 
the security and safety of the American people.

    Mr. Katko. With that, I now recognize the Ranking Member of 
this subcommittee, the gentlewoman from New York, Miss Rice, 
for any statement she may have.
    Miss Rice. Thank you, Mr. Chairman, and thank you for 
convening this hearing.
    I want to thank our witnesses from DHS, CBP, TSA, and the 
State Department for coming here today to discuss the decision 
to allow scheduled commercial air travel between the United 
States and Cuba. I know that the State Department played an 
important role in arranging the civil aviation partnership with 
Cuba, and I hope that Principal Deputy Assistant Secretary Tong 
can give us some insight into the process that led to this 
agreement.
    Right now, as we know, only chartered flights operate 
between the United States and Cuba, but under the terms of the 
agreement that was announced in February, at some point this 
year American air carriers will be allowed to operate more than 
100 scheduled flights each day in addition to the chartered 
flights. Before that can happen, TSA, DHS, CPP--CBP, and other 
relevant agencies must verify that Cuban airports meet 
international security standards and are fully prepared to 
screen passengers and their baggage before they board a plane 
bound for the United States.
    I am looking forward to hearing from TSA and from all of 
our witnesses about how they would assess Cuba's airport 
security right now, what they are doing to enhance security at 
Cuban airports, and whether they have concerns about Cuba's 
security capabilities. I am also looking forward to hearing how 
TSA is working with air carriers and what kind of regulations 
will be issued to further enhance security.
    For instance, what mechanisms are in place to ensure that 
we know exactly who is on-board a flight bound for the United 
States? How will we ensure that we are obtaining accurate 
information from passengers traveling to the United States? How 
does the CBP intend to verify travel documents and ultimately 
determine whether or not a certain individual can enter the 
United States?
    Those are some of the salient questions that I think need 
to be addressed in this discussion because allowing scheduled 
air travel between the United States and Cuba clearly has the 
potential to benefit both of our countries, but it also comes 
with unique security challenges. So I hope our conversation 
today will help clarify what those challenges are and how we 
will overcome them.
    Mr. Chairman, thank you again for convening this hearing. I 
yield back the balance of my time.
    Mr. Katko. I now recognize the Chairman of the full 
committee, the gentleman from Texas, Mr. McCaul, for any 
statement he may have.
    Chairman McCaul. Thank you, Chairman Katko, for holding 
this important hearing today and for your leadership on 
aviation security.
    To Kathleen Rice, Ranking Member, thank you as well.
    I believe that this issue of security at last-point-of-
departure airports is of critical importance to our homeland 
security. We saw this first-hand earlier this month when I led 
a Congressional delegation overseas to examine the spread of 
Islamist militant groups, and I had the opportunity to visit 
Egypt and examine the security measures in place at the Cairo 
airport.
    I think the Egyptians are making progress, but what I saw 
was still concerning, especially when we compared to our own 
airports. For instance, they are not using full-body scanners, 
and airport workers are apparently not fully vetted against up-
to-date terror watch lists. Yet, the Cairo airport serves as a 
last point of departure to the United States.
    Now the administration is rushing to open regularly-
scheduled commercial air service to Cuba and designate 10 new 
airports as last points of departure into the United States. I 
fear that the security situation at these airports in Cuba is 
much, much worse than places like Cairo. While there are only 5 
direct flights to the United States each week from somewhere 
like Egypt, the administration's proposal calls for up to 110 
daily flights between the United States and Cuba.
    I hope to visit Cuba in the near future with Representative 
Katko and others to evaluate the airport security situation 
myself.
    The administration's plans to open direct commercial air 
service to Cuba is, in my judgment, being unnecessarily rushed. 
There are serious security concerns here that seem to be taking 
a back seat to a legacy-building effort. Although Cuba has 
taken steps to liberalize its economy in recent years, the 
country is still being led by a communist dictator who has been 
ruthless against his own people and who has brutally suppressed 
calls for more open and democratic governance.
    Restoring relations has done little to soften the Castro 
regime's hateful rhetoric towards the United States or to 
compel the government to loosen its tyrannical grip. In fact, 
it has done the opposite by rewarding bad behavior, and now the 
regime is giving us no indication that it is acting in good 
faith or has the best interests of the United States or our 
citizens in mind.
    Accordingly, we must do all we can to ensure the safety and 
security of Americans that choose to visit the island, and so 
far I remain entirely unconvinced the administration has done 
its due diligence. While the Obama administration may be 
willing to put the security of Americans at risk to appease a 
dictator, today's hearing will show that the United States 
Congress will not.
    Mr. Chairman, with that I yield back.
    Mr. Katko. Thank you, Mr. Chairman.
    I now recognize the Ranking Member of the full committee, 
the gentleman from Mississippi, Mr. Thompson, for any statement 
he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for convening this important hearing.
    I welcome our witnesses, also, to this hearing.
    Earlier this year the Obama administration and Cuban 
government finalized an arrangement that will resume commercial 
aviation between the United States and Cuba. We, as a committee 
with oversight jurisdiction of transportation security 
measures, have the great responsibility of ensuring that the 
Transportation Security Administration, the Department of 
Homeland Security, Customs and Border Protection, and other 
relevant agencies are doing their due diligence to ensure that 
the flights departing from Cuba to the United States are 
secure.
    Although not last points of departure, the recent bombings 
of planes originating from Mogadishu, in which one was killed, 
and Sharm el-Sheikh, tragically killing everyone on board, 
serves as a stern reminder that there are those who wish to do 
us harm using commercial aircraft.
    There are over 300 airports around the world that serve as 
last points of departure, or foreign airports that fly directly 
to the United States. The standard is always that TSA and other 
relevant entities perform the investigation and mitigation 
measures necessary to ensure that these flights are not able to 
be targeted by nefarious characters. As I understand it, the 
agencies' efforts to inspect and prepare the Cuban airports are 
no different than stringent inspection efforts and regulatory 
schemes that are in place at other last points of departure 
airports.
    The title of this hearing, ``Flying Blind,'' would lead you 
to believe that nothing has been done to assess these airports 
before they schedule commercial service to and from the United 
States. TSA informs us that they are inspecting and evaluating 
airports even as we speak. These airports must have a level of 
security at least on par with International Civil Aviation 
Organizational standards, and inspectors are ensuring this now. 
TSA also has the power to implement regulatory schemes that 
compel airlines to perform additional security measures beyond 
ICAO standards.
    I look forward to hearing from Assistant Secretary 
Fujimura, the head of the Office of Global Strategies, on what 
his teams are doing to ensure security in Cuban airports and 
what additional mitigation measures he plans to implement.
    I also look forward to hearing from Deputy Assistant 
Wagner, who will talk to us about the role CBP plays in foreign 
flight or travel prevention and fraudulent document detection 
efforts.
    I thank Assistant Secretary Stodder for appearing today to 
speak on the broader aspect of DHS's policies in these matters.
    I understand that Principal Deputy Assistant Secretary Tong 
has a hard stop due to other engagements. It is going to be 
even harder because we just had votes called. So I hope you are 
with us for a while.
    I yield back, Mr. Chairman.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 2, 2016
    Earlier this year, the Obama administration and Cuban government 
finalized an arrangement that will resume commercial aviation between 
the United States and Cuba. We, as a committee with oversight 
jurisdiction of transportation security matters, have the great 
responsibility of ensuring that the Transportation Security 
Administration, the Department of Homeland Security, Customs and Border 
Protections, and other relevant agencies are doing their due diligence 
to ensure that the flights departing from Cuba to the United States are 
secure.
    Although not last points of departure, the recent bombings of 
planes originating from Mogadishu, which killed one, and Sharm al-
Shiekh, tragically killing everyone on board, serve as stern reminders 
that there are those who wish to do us harm using commercial aircraft.
    There are over 300 airports around the world that serve as last 
points of departure, or foreign airports that fly directly to the 
United States. The standard is always that TSA and other relevant 
government entities perform the investigations and mitigation measures 
necessary to ensure that these flights are not able to be targeted by 
nefarious characters. As I understand it, the agency's efforts to 
inspect and prepare the Cuban airports are no different than the 
stringent inspections, efforts, and regulatory schemes that are in 
place at other last-point-of-departure airports.
    The title of this hearing, ``Flying Blind'', would lead you to 
believe that nothing has been done to assess these airports before they 
schedule commercial service to and from the United States. TSA informs 
us that they are inspecting and evaluating airports, even as we speak. 
These airports must have a level of security at least on par with 
International Civil Aviation Organization standards, and inspectors are 
ensuring this now. TSA also has the power to implement regulatory 
schemes that compel airlines to perform additional security measures 
beyond ICAO standards.
    I look forward to hearing from Assistant Secretary Fujimara, the 
head of the Office of Global Strategies, on what his teams are doing to 
ensure security in Cuban airports, and what additional mitigation 
measures he plans to implement. I also look forward to hearing from 
Deputy Assistant Commissioner Wagner, who will talk to us about the 
role that CBP plays in foreign fighter travel prevention and fraudulent 
document detection efforts.
    I thank Assistant Secretary Stoddard for appearing today to speak 
on the broader aspects of DHS policy in these matters. I understand 
that Principal Deputy Assistant Secretary Tong has a hard stop due to 
other engagements, but look forward to hearing his insight on the 
negotiation process that lead to the aviation arrangement with Cuba.

    Mr. Katko. Thank you.
    Due to votes on the floor, the subcommittee stands in 
recess subject to the call of the Chair. We anticipate probably 
about a half an hour or so.
    [Recess.]
    Mr. Katko. Thank you for coming back from that break. Sorry 
about that. We sometimes can't control the whims of the voting 
process.
    But other Members of the committee are reminded that 
opening statements may be submitted for the record.
    We are pleased to have with us 5 distinguished witnesses to 
testify before us today on this very important topic.
    Our 4 witnesses from the Department of Homeland Security 
include Mr. Larry Mizell, who currently serves as TSA's 
representative for the Caribbean Region, which includes Cuba--
is that correct? Okay. Mr. Paul Fujimura, assistant 
administrator for the Office of Global Strategies in--at the 
Transportation Security Administration; Mr. John Wagner, deputy 
executive assistant commissioner for Customs and Border 
Protection--that is a big title; Mr. Seth Stodder, the 
assistant secretary of homeland security for border, 
immigration, and trade policy at the Department of Homeland 
Security.
    Thank you all for being here today.
    I now recognize Mr. Stodder for a joint statement on behalf 
of all 4 witnesses from the Department of Homeland Security.

  STATEMENT OF SETH STODDER, ASSISTANT SECRETARY OF HOMELAND 
     SECURITY, BORDER, IMMIGRATION, AND TRADE POLICY, U.S. 
 DEPARTMENT OF HOMELAND SECURITY; ACCOMPANIED BY LARRY MIZELL, 
  TSA REPRESENTATIVE, TRANSPORTATION SECURITY ADMINISTRATION, 
U.S. DEPARTMENT OF HOMELAND SECURITY; PAUL FUJIMURA, ASSISTANT 
ADMINISTRATOR, OFFICE OF GLOBAL STRATEGIES, U.S. DEPARTMENT OF 
HOMELAND SECURITY; AND JOHN WAGNER, DEPUTY EXECUTIVE ASSISTANT 
COMMISSIONER, CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Stodder. Good afternoon, Chairman Katko, Ranking Member 
Rice, and distinguished Members of the subcommittee. My name is 
Seth Stodder and I am the assistant secretary of homeland 
security for border, immigration, and trade policy.
    On behalf of my colleagues from DHS that sit beside me 
today, I thank you for the opportunity to appear before you 
today to discuss the Department's role in aviation security, 
specifically as it pertains to commercial air service between 
the United States and Cuba. I will be providing a brief opening 
statement on behalf of myself as well as my 3 DHS colleagues, 
and then we would look forward to answering any questions you 
might have.
    Let me begin by discussing the DHS role in aviation 
security generally, and then I will get to the issues more 
specific to Cuba.
    Since the 9/11 attacks, and with the help and support of 
Congress, DHS has worked to develop a robust, risk-based 
strategy aimed at securing aviation against threats while also 
facilitating the lawful flow of legitimate travel and commerce 
across our borders and throughout the aviation system. As 
repeated incidents have reminded us, from the 9/11 attacks 
themselves to the recent destruction of Metrojet Flight 9268 
above the northern Sinai in October 2015, the aviation sector 
remains a target for attack or exploitation by terrorists, 
criminals, and other bad actors.
    To meet this challenge, the DHS strategy relies upon the 
following core elements.
    First, under U.S. law, DHS, acting through TSA, is required 
to assess security at all foreign airports serving as a last 
point of departure offering service to the United States. 
Pursuant to the law, TSA has people on the ground working with 
foreign partners, air carriers, airport authorities, and others 
to assess all aspects of the security at such airports. Only 
after TSA determines that an airport meets international 
security standards may that airport offer flight service to the 
United States.
    Once flight service begins, TSA continues to inspect and 
monitor these airports and carriers, and it has the authority 
to take action if security standards are not being met or if 
intelligence warrants. TSA can suspend service entirely or it 
can issue security directives and emergency amendments for 
mandatory implementation by carriers at LPD locations.
    Bottom line: TSA keeps a close eye on the security of 
foreign airports that offer air service to the United States.
    Second, only those with valid travel documents are 
permitted to fly to the United States. Most foreign nationals 
seeking to travel must possess a valid visa issued by the U.S. 
embassy or consulate, unless they are nationals of a country 
that participates in the Visa Waiver Program, in which case 
they must apply for travel authorization through the Electronic 
System for Travel Authorization, or the ESTA program.
    Third, both TSA and CBP collect information from passengers 
and air carriers so that we can identify and vet for security 
purposes all air passengers seeking travel to the United 
States. Through the Secure Flight program, TSA vets all air 
passengers against the Terrorist Screening Database, including 
the no-fly list prior to wheels up. Once travel is booked, 
CBP's national targeting center gathers information from the 
air carriers to assess risk and conduct pre-departure vetting 
of all passengers.
    If TSA or CBP identify a security or enforcement issue, DHS 
will coordinate with the regional carrier liaison groups to 
prevent that person from boarding the flight.
    Finally, on arrival all inbound air passengers and their 
luggage are subject to further screening by CBP before entering 
the United States.
    This multilayered security and enforcement strategy applies 
to all international aviation to the United States and will 
also apply with equal force to the scheduled commercial 
aviation to and from Cuba whenever it begins. Specifically with 
regard to Cuba, DHS has worked closely with our interagency 
partners, including the State Department, as the United States 
has worked to evolve our bilateral relationship.
    DHS plays a key role in the U.S.-Cuba relationship by 
working to secure lawful, orderly flows of people and commerce 
between our 2 countries, and working together on law 
enforcement, maritime safety and security, migration, among 
other issues.
    Most recently, DHS signed the memorandum of understanding 
with the Cuban ministry of the interior and customs focused on 
law enforcement cooperation. This week, senior DHS leaders, 
including the deputy secretary, are in Cuba as part of the on-
going U.S.-Cuba law enforcement dialogue, co-chaired by the 
Departments of State, Justice, and Homeland Security, with a 
DHS delegation, including representatives from the U.S. Coast 
Guard, CBP, and ICE.
    With regard to the start of scheduled air service between 
the United States and Cuba, as I have noted, all of the 
security and enforcement requirements in place for 
international flights to the United States will be applied with 
equal force to Cuba flights. Indeed, these measures are already 
in place with regard to the charter flights that have for many 
years offered service between our 2 countries.
    Furthermore, TSA is working to finalize an arrangement with 
Cuba for the deployment of Federal air marshals, which will be 
in place before the start of scheduled commercial flights.
    In short, DHS is working closely with our interagency 
partners, the commercial air carriers, and others to ensure the 
security of scheduled commercial flights to and from Cuba once 
they begin. We will continue to work together and in 
consultation with this committee as we work in general to 
strengthen on-going efforts to secure international air travel 
and promote safe and efficient international travel and tourism 
to and from the United States.
    Thank you for the opportunity to testify here today, and my 
DHS colleagues and I look forward to answering any questions 
you might have.
    [The joint prepared statement of Mr. Stodder, Mr. Mizell, 
Mr. Fujimura, and Mr. Wagner follows:]
 Joint Prepared Statement of Seth Stodder, Paul Fujimura, Lary Mizell, 
                            and John Wagner
                              May 17, 2016
                              introduction
    Good afternoon, Chairman Katko, Ranking Member Rice, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the Department of 
Homeland Security's role in aviation security as it pertains to 
commercial air service between the United States and Cuba.
    In response to both 9/11 and evolving threats, and with the help 
and support of Congress, DHS has adapted and enhanced its ability to 
detect and mitigate a diversity of threats through a multi-layered, 
risk-based system. Our people do extraordinary work every day to 
protect the homeland from the threat of terrorist-directed attacks, and 
the increasing threat of terrorist-inspired attacks, while protecting 
our Nation's economic prosperity and the American way of life. We know 
terrorists, criminals, and hostile nation-states have long viewed the 
transportation sector, particularly aviation, as a leading target for 
attack or exploitation. Unfortunate demonstrations of this continued 
focus on the aviation environment include the attempted ``Shoe Bomber'' 
in December 2001, the attempted ``Underwear Bomber'' in December 2009, 
the attempted ``Package Bomb'' plot in October 2010, the destruction of 
Metrojet Flight 9268 above the northern Sinai in October 2015, and most 
recently on February 2, 2016 during an attack on Daallo Airlines, where 
explosives detonated during its ascent from Adde International Airport 
in Mogadishu. These persistent and evolving threats to the aviation 
environment, to the broader transportation sector, and to the homeland 
in general are among DHS's most pressing challenges and require an 
intense and sustained focus on our security missions.
    DHS security professionals here in the United States and around the 
globe are committed to our mission, and they are our most important 
resource. Last fiscal year, for example, TSA screened 695 million 
passengers (3 million more than last year); screened 450 million pieces 
of checked luggage (the highest in 6 years), and, at the same time, 
seized a record number 2,500 firearms from carry-on luggage, 84% of 
which were loaded. Also in last fiscal year, CBP screened 1 million 
commercial and private aircraft and 382 million travelers at land, 
marine, and air ports of entry to the United States. DHS relies upon 
intelligence-driven analysis, innovative partnerships, and advanced 
technology to secure and speed the movement of legitimate cargo and 
travelers transiting through the aviation environment each day. As the 
vast majority of people, goods, and services moving through our 
transportation systems are legitimate and pose minimal risk.
    This risk-based approach will result in separating known and 
unknown travelers, with known travelers receiving expedited screening 
and other travelers, some high threat, receiving more extensive 
screening. To improve aviation and airport security, DHS also has 
enhanced security at overseas last-point-of-departure airports, and a 
number of foreign governments have replicated those enhancements. We 
continue to work domestically and abroad to address evolving challenges 
posed by insider threats, employee screening protocols, airport access 
controls, perimeter security, cybersecurity at airports, exit lane 
monitoring requirements, and checked baggage and air cargo screening 
operations. We remain deeply committed to ensuring that DHS remains a 
high-performing, risk-based intelligence-driven counterterrorism 
organization.
    The Department's commitment to this approach continues as the 
United States begins scheduled air service between the United States 
and Cuba. DHS, particularly through its operational components and 
working closely with our United States Government interagency partners, 
plays a key role in the U.S.-Cuba relationship by securing flows of 
people and ensuring the security of authorized trade between the United 
States and Cuba. In DHS headquarters, the Office of Policy assists the 
operators, like TSA and CBP, by providing coordination across the 
Department and with the Federal interagency, ensuring that the work of 
the components of the Department and their missions represent a unified 
effort. As an example, the Office of Policy led the negotiations that 
developed a law enforcement cooperation Memorandum of Understanding 
between DHS and the Ministry of the Interior (MININT) and the Customs 
Office (AGR) of the Republic of Cuba. The MOU sets the basis of 
cooperation in exchanging risk information for travelers, cargo, or 
conveyances in international transit; the continuation of periodic, 
mutual, and reciprocal assessments regarding air, sea, and port 
security; and the coordination of transportation security, screening of 
cargo, travelers, and baggage, and the design of secure, efficient 
inspection facilities at ports and airports, among other things. 
Implementation of the MOU will be coordinated under the umbrella of the 
on-going Law Enforcement Dialogue, currently co-chaired by the 
Departments of State (DOS), Justice (DOJ), and DHS and the DHS 
delegation will include representatives from the DHS Office of Policy, 
U.S. Coast Guard, CBP, and Immigration and Customs Enforcement.
    TSA's mission is to protect the Nation's transportation systems to 
ensure freedom of movement for people and commerce. Within TSA, the 
Office of Global Strategies (OGS) works with international and domestic 
partners to address security risks to international transportation 
modes. When a new threat or potential vulnerability emerges, TSA 
coordinates with foreign governments, air carriers, and international 
organizations to develop and implement responses that effectively 
mitigate the likelihood of a successful attack. This process involves 
measures used to identify risk in terms of threat, vulnerability, and 
consequence. Once a threat is identified, TSA analyzes the underlying 
factors and develops appropriate mitigation strategies as part of its 
role as an intelligence-driven counterterrorism agency.
    TSA would like to take this opportunity to thank the Members and 
staff of the subcommittee for its continued support of TSA's 
international mission, as well as for developing H.R. 4698, the 
``Securing Aviation from Foreign Entry Points and Guarding Airports 
Through Enhanced Security,'' or SAFE GATES Act of 2016. This 
legislation passed the House on April 26, 2016. It would enable TSA to 
more effectively execute its mission, notably through authority to 
donate screening equipment to appropriate international partners. The 
bill also includes authorities pertaining to recognizing foreign cargo 
security programs. These authorities would assist TSA in its efforts to 
work with foreign partners to mitigate risks and enhance the security 
of transportation systems.
                    tsa's international authorities
    Under title 49 of Chapter 449, of the United States Code, the 
Secretary of Homeland Security is required to assess security at all 
foreign airports served by U.S. aircraft operators as well as at 
foreign airports serving as last-point-of-departure (LPD) locations for 
foreign air carriers using the security standards adopted by the 
International Civil Aviation Organization (ICAO). The Secretary has 
delegated this duty to TSA. Under this requirement, as well as the 
regulations at 49 C.F.R.  1544.3 and 1546.3, TSA OGS evaluates the 
effectiveness of security measures maintained at foreign locations 
through assessments of foreign airports and inspections of air carriers 
that operate from those airports. TSA collaborates closely with foreign 
partners, including host governments, air carriers, all-cargo air 
carriers, international organizations, as well as airport authorities. 
TSA maintains close relationships internationally through our 
Transportation Security Administration Representatives (TSARs), 
International Industry Representatives, and TSA's Transportation 
Security Specialists (TSSs). TSA also coordinates with multi-lateral 
and industry organizations, such as ICAO, International Air Transport 
Association (IATA), Airports Council International (ACI), QUAD, and G7 
groups. TSA serves as the lead U.S. Government agency on matters of 
aviation security and represents the United States on the ICAO Aviation 
Security Panel of Experts (AVSEC Panel) and in its various working 
groups. All of the above support the Homeland Security mission.
 commencement of new international flight service to the united states
    Whenever commercial air carriers seek to launch new flight service 
into the United States, Federal requirements must be fulfilled prior to 
the commencement of those services, including safety regulations of the 
Federal Aviation Administration (FAA), as well as TSA's security 
standards.
    When a new flight route is requested, TSA's Transportation Security 
Specialists will visit the LPD airport to determine the efficacy of 
security operations. TSA also conducts on-site inspections of U.S. 
aircraft operators, foreign air carriers, U.S. all-cargo aircraft 
operators, and foreign all-cargo air carriers for those operations that 
serve the United States from that LPD.
    Additionally, TSA conducts thorough assessments to determine 
compliance with international security requirements. These assessments 
include on-site observation and verification, interviews, and document 
review pertaining to critical airport and air carrier operations. As 
part of these airport and air carrier visits, TSA's TSSs observe and 
determine compliance with requirements in the following areas:
  <bullet> Passenger Screening
  <bullet> Carry-on and Checked Baggage Screening
  <bullet> Access Control
  <bullet> Aircraft Security
  <bullet> Cargo Security
  <bullet> Incident Prevention and Response
  <bullet> Airport Operations
  <bullet> Mail Security, and
  <bullet> Quality Control.
    Flight service into the United States becomes possible once these 
security measures have been evaluated and determined to be in 
compliance with international security requirements, based on the 
Standards and Recommended Practices contained in Annex 17 to the 
Convention on International Civil Aviation, adopted by ICAO.
        ensuring continual compliance with security requirements
    Once such commercial service has commenced, TSA conducts regular, 
on-going visits to these airports to ensure continued compliance and to 
identify any existing or potential vulnerabilities in the security 
operations.
    TSA's methodology to determine the frequency of these assessments 
and inspections uses the threat, vulnerability, and consequence model. 
This methodology ensures that the allocation of assets is based on the 
likelihood of a location being targeted (threat), the protective 
measures in place (vulnerability), and the impact of the loss of that 
airport's services (consequence). Once this is determined, assessments 
are coordinated by the applicable TSARs and completed by a team of TSSs 
from 1 of our 6 Regional Operation Centers located world-wide. Our TSSs 
performed 289 air carrier inspections and 146 foreign airport 
assessments in fiscal year 2015. TSA is on a similar course for fiscal 
year 2016.
    TSA also engages in the recognition of international programs 
commensurate with TSA's own requirements in the United States. The 
recognition of National Cargo and National Explosive Detection Canine 
Security Programs provide TSA with opportunities to identify 
vulnerabilities at LPD airports overseas while also engaging closely 
with domestic and international partners to promote information 
sharing. These TSA commensurability programs continued to thrive, with 
the recognition of now 40 National Cargo and 3 National Explosives 
Detection Canine Security Programs in cooperation with foreign 
governments, to include the 28 Member States of the European Union.
                      mitigating the inbound risk
    TSA has a variety of tools to mitigate issues identified during 
airport or air carrier inspections. Options range from providing 
immediate guidance and recommendation for improvements, conducting 
training, recommending a Public Notice stating that the airport does 
not implement adequate security measures, or suspending service 
entirely. These last 2 responses are generally only considered when all 
other attempts to improve security have failed. When a specific threat 
is identified, or as warranted by significant vulnerabilities, TSA may 
issue Security Directives (SDs) and Emergency Amendments (EAs) for 
implementation by air carriers at selected LPD locations. SDs are 
regulations issued by TSA to mitigate threats posed to transportation 
for U.S. airport and aircraft operators, and EAs are issued to foreign 
air carriers. These risk-mitigating regulations apply to all U.S. air 
carriers, U.S. airport operators, as well as foreign air carriers 
operating to, from, or within the United States.
    Prior to issuing SDs and EAs, TSA works with partners and 
stakeholders to develop effective and appropriate regulatory language 
to address identified vulnerabilities and communicate these new policy 
requirements to foreign and domestic partners. Additionally, TSA may 
issue information circulars to regulated parties to share security 
concerns, best practices, and other situational information.
        commercial flight service and aviation security in cuba
    On February 16, 2016, U.S. Transportation Secretary Anthony Foxx, 
Assistant Secretary of State for Economic and Business Affairs Charles 
Rivkin, Cuban Minister of Transportation Adel Yzquierdo Rodriguez and 
president of the Institute of Civil Aeronautics of Cuba (IACC), Alfredo 
Cordero Puig, signed an arrangement that provides for the re-
establishment of scheduled air services between the United States and 
Cuba. Immediately following the signing, the U.S. Department of 
Transportation (DOT) instituted a proceeding and invited U.S. air 
carriers to apply for an allocation of the new opportunities provided 
by the arrangement.
    Under the arrangement, U.S. carriers may operate up to 20 daily 
round-trip flights between the United States and Havana and up to 10 
daily round-trip flights between the United States and each of Cuba's 9 
other international airports, for a total of 110 daily round-trip 
flights between the United States and Cuba. We expect the new services 
to begin later this year.
    TSA currently assesses Cuban airports in Cienfuegos, Camaguey, 
Havana, Holguin, Manzanillo, Santiago, and Santa Clara. TSA has 
reconfirmed its commitment to respond in a timely manner for 
assessments at any new start-up airports that are approved for service 
between Cuba and the United States. New LPD service could begin later 
this year at 3 additional Cuban airports: Matanzas, Cayo Coco, and Cayo 
Largo.
    For the past 5\1/2\ years, TSA and the IACC have enjoyed a strong, 
professional relationship. During this period, the IACC has responded 
favorably to every aviation security initiative proposed by TSA. 
Through the work of TSA personnel and our Cuban counterparts, we have 
made important advancements in securing this new aviation security 
partnership. The Cuban representatives associated with IACC are highly 
professional and eager to achieve the best security possible. They 
maintain the required aviation security posture at all LPD airports, 
despite challenges posed by limited access to equipment and training.
                   deployment of federal air marshals
    TSA is working to finalize an arrangement with the government of 
Cuba on the deployment of Federal Air Marshals (FAMs) on flights 
between the United States and Cuba. The initial arrangement will apply 
only to public charter flights. Once scheduled flights begin later this 
year, a new FAMs arrangement will be necessary to cover those flights.
              vetting of passengers through secure flight
    Cuba's national air carrier, Cubana de Aviacion does not currently 
provide service to the United States, but overflies the United States 
en route to Canada. TSA has required the air carrier to establish a TSA 
security program and provide passenger information to TSA for vetting 
against the Terrorist Screening Database via Secure Flight. Current 
regulations require that flights of foreign registered aircraft 
transiting or operating within U.S. territorial airspace meet specific 
conditions. One of those conditions is to operate under an approved TSA 
Secure Flight Program or through an approved FAA/TSA airspace waiver. 
Since Cubana de Aviacion does not fly to U.S. airports, it does not 
currently qualify for a full TSA security program and instead operates 
under a limited security program.
    On February 13, 2016, executives from Cubana de Aviacion briefed 
TSA on their latest efforts to implement Secure Flight for flights 
through U.S. airspace between Canada and Cuba. Aggressive testing of 
procedures has been completed. On Monday, April 4, 2016, Secure Flight 
received the first successful submissions in the live production system 
for Cubana de Aviacion.
    TSA is coordinating with the DOT and the IACC to ensure that 
security for forthcoming scheduled air service between our countries 
meets TSA's requirements as well as the high security expectations of 
the U.S. traveling public. Through the successful growth of our working 
relationship with the IACC, TSA has seen a commitment to aviation 
security as the IACC has been receptive to all proposals put forward by 
TSA to enhance security. The 7 Cuban airports currently assessed and 
inspected by TSA meet the international standards adopted by ICAO. In 
the coming months, and as more information becomes available from DOT 
on the allocation of frequencies, TSA will continue to engage with 
U.S., Cuban, and industry stakeholders to ensure the security of all 
commercial flight service between the United States and Cuba.
    CBP's approach to securing and facilitating the travel of Cuban 
nationals on commercial flights to and from the United States will be 
identical to our approach for any other international flight. CBP's 
intelligence-driven strategy is integrated into every aspect of our 
travel security operations at every stage along the international 
travel sequence--including when an individual applies for U.S. travel 
documents; reserves, books, or purchases an airline ticket; checks-in 
at an airport; while en route; and upon arrival at a U.S. port of entry 
(POE). This multi-layered approach is designed to detect, identify, and 
prevent dangerous or inadmissible individuals from boarding planes 
bound for the United States.
                        pre-departure safeguards
    On a typical day, CBP welcomes to the United States nearly 1 
million travelers at our air, land, and sea POEs, almost 300,000 of 
whom arrive by air. One of the initial layers of defense in securing 
international air travel is preventing dangerous persons from obtaining 
visas, travel authorizations, and boarding passes. Before boarding a 
flight destined for the United States, most foreign nationals,\1\ 
including Cuban nationals, must obtain a nonimmigrant or immigrant 
visa--issued by a U.S. embassy or consulate--or, if they are eligible 
to travel under the Visa Waiver Program (VWP), they must apply for a 
travel authorization through the Electronic System for Travel 
Authorization (ESTA).\2\
---------------------------------------------------------------------------
    \1\ Exceptions would be citizens of countries under other visa 
exempt authority, such as Canada. Citizens of countries under visa 
exempt authority entering the United States via air are subjected to 
CBP's vetting and inspection processes prior to departure. In the land 
environment, they are subjected to CBP processing upon arrival at a 
U.S. POE.
    \2\ Cuban nationals, who are dual citizens with VWP countries, may 
apply for authorization to travel under the VWP through CBP's ESTA.
---------------------------------------------------------------------------
    Through ESTA, CBP conducts enhanced vetting of VWP applicants in 
advance of travel to the United States, to assess whether they are 
eligible to travel under the VWP, could pose a risk to the United 
States or the public at large. In response to increasing concerns 
regarding foreign fighters and other terrorist threats, DHS recently 
strengthened the security of VWP by implementing enhancements to ESTA. 
These enhancements include a series of additional questions VWP 
travelers must answer on the ESTA application, including other names or 
citizenships; parents' names; contact and employment information; and 
city of birth. These improvements are designed to provide an additional 
layer of security for the VWP and increase our ability to distinguish 
between lawful applicants and individuals of concern.
    Any traveler who requires a nonimmigrant visa to travel to the 
United States must apply to the Department of State (DOS) under 
specific visa categories depending on the purpose of their travel, 
including those as visitors for business, pleasure, study, and 
employment-based purposes. Prior to the issuance of a visa, the DOS 
screens every visa applicant's biographic data against the DOS Consular 
Lookout and Support System, and provides data to the inter-agency 
community via the streamlined DOS Security Advisory Opinion (SAO) 
process to alert consular officers to the existence of Terrorist 
Screening Database (TSDB) files or records related to potential visa 
ineligibilities. DOS also checks the applicant's biometric data (i.e., 
fingerprints and facial images) against other U.S. Government databases 
for records indicating potential security, criminal, and immigration 
violations.
    In an effort to augment and expand visa security operations, ICE 
Visa Security Program (VSP) personnel are co-located with CBP personnel 
at the National Targeting Center (NTC) to conduct thorough and 
collaborative analysis and in-depth investigations of high-risk visa 
applicants. The VSP is focused on identifying terrorists and criminal 
suspects and preventing them from exploiting the visa process, while 
the NTC provides tactical targeting and analytical research in support 
of preventing terrorist and terrorist weapons from entering the United 
States.
    Furthermore, ICE, CBP, and DOS have implemented an automated visa 
application screening process that significantly expands DHS's ability 
to identify serious threats to National security and public safety. The 
program enables synchronized reviews of information across these 
agencies and allows for a unified DHS response and recommendation 
regarding a visa applicant's eligibility to receive a visa. This 
process also serves as a precursor to and works in conjunction with the 
current DOS SAO and Advisory Opinion (AO) programs. The collaborative 
program leverages the 3 agencies' expertise, authorities, and 
technologies, such as CBP's Automated Targeting System (ATS), to screen 
pre-adjudicated (approved) visa applications and enhance the U.S. 
Government's anti-terrorism efforts.
    Once travel is booked, CBP's NTC gathers information, assesses 
risk, and conducts pre-departure vetting for all international flights 
departing for the United States by commercial air. CBP leverages all 
available advance passenger data\3\--including Passenger Name Record 
(PNR) and Advance Passenger Information System (APIS) data, previous 
crossing information, intelligence, and law enforcement information, as 
well as open source information in its anti-terrorism efforts at the 
NTC--to make risk-based operational decisions before a passenger boards 
an aircraft, continuing until the traveler enters the United States.
---------------------------------------------------------------------------
    \3\ When a traveler purchases a ticket for travel to the United 
States, a PNR is generated in the airline's reservation system. PNR 
data contains information on itinerary, co-travelers, changes to the 
reservation, and payment information. CBP receives passenger data from 
commercial air carriers at various intervals up to 96 hours prior to 
departure and concluding at the scheduled departure time. Further, APIS 
regulations require that commercial air carriers transmit all passenger 
and crew manifest information before departure, prior to securing the 
aircraft doors. CBP vets APIS information, which includes passenger 
biographic data and travel document information, on all international 
flights to and from the United States against the Terrorist Screening 
Database, criminal history information, records of lost or stolen 
passports, public health records, and prior immigration or customs 
violations and visa refusals.
---------------------------------------------------------------------------
    The NTC vetting process for international passengers continues 
while the flight is en route to the United States to identify any 
travelers who, although not necessarily National security risks, may 
need a more thorough inspection at the port of entry upon arrival in 
the United States. Furthermore, CBP's pre-departure vetting efforts 
work in concert with the Transportation Security Administration's (TSA) 
Secure Flight program, which vets 100 percent of passengers flying to, 
from, over, and within the United States against the No-Fly and 
Selectee portions of the TSDB.
    Supported by these targeting efforts, CBP uses overseas enforcement 
capabilities and partnerships to extend our zone of security. For 
international flights to and from Cuba, CBP will coordinate with the 
Regional Carrier Liaison Groups (RCLG) to prevent terrorists and other 
inadmissible aliens from boarding U.S.-bound commercial aircraft. The 
RCLGs, which are located in Honolulu, Miami, and New York, are staffed 
by CBP Officers and utilize established relationships with the 
commercial airlines to prevent passengers who may pose a security 
threat, who present fraudulent documents, or those who are otherwise 
inadmissible from boarding flights to the United States.
                           arrival processing
    CBP's use of advance information and targeting are key elements of 
CBP's multi-layered security strategy to address concerns long before 
they reach the physical border of the United States. It is important to 
note that upon arrival in the United States, all persons, regardless of 
citizenship, are subject to inspection by CBP Officers. CBP Officers 
review entry documents, collect biometrics,\4\ query CBP and other law 
enforcement databases with both biographic and biometric information, 
and interview each traveler to confirm identity, determine the purpose 
and intent of their travel, and whether any further inspection is 
necessary based on, among other things, National security, 
admissibility, customs, or agriculture concerns.
---------------------------------------------------------------------------
    \4\ Generally speaking, biometrics are collected from aliens 
arriving at U.S. airports, except for: (i) Certain Canadian citizens 
temporarily visiting the United States; (ii) children under the age of 
14; (iii) persons over the age of 79; and (iv) aliens admitted on A-1, 
A-2, C-3 (except for attendants, servants, or personal employees of 
accredited officials), G-1, G-2, G-3, G-4, NATO-1, NATO-2, NATO-3, 
NATO-4, NATO-5, or NATO-6 visas; and (v) certain Taiwan officials who 
hold E-1 visas or members of their immediate family who hold E-1 visas.
---------------------------------------------------------------------------
    Cuban citizens do have a unique processing ability under the Cuban 
Adjustment Act (CAA), Pub. L. 89-732, which allows Cuban citizens who 
are inspected and admitted or paroled into the United States to file 
for Lawful Permanent Resident status after being present in the United 
States for 1 year and 1 day.
    During arrival processing, CBP Officers remove from circulation all 
counterfeit, fraudulent, and altered travel documents, as well as lost 
or stolen travel documents presented for use by an individual other 
than the rightful holder. CBP's Fraudulent Document Analysis Unit 
maintains a central fraudulent document repository and provides 
analysis, intelligence, alerts, and training back to the field. 
Furthermore, through the Carrier Liaison Program (CLP), CBP Officers 
provide interactive training to commercial air carrier participants to 
improve the air carrier's ability to detect and disrupt improperly 
documented passengers. Since the program's inception in 2005, CLP has 
provided training to more than 36,341 airline industry personnel. In 
consultation with the Department of State, CBP has tentatively 
scheduled a 1-week CLP training mission for airline personnel in Havana 
for September 2016.
                               conclusion
    In support of U.S. foreign policy towards Cuba, DHS, CBP, and TSA 
are working with our Federal and international partners--as well as 
commercial carriers--to ensure the security and facilitation of the 
increased volume of commercial air travelers from Cuba. We will 
continue to collaborate to strengthen on-going efforts to secure 
international air travel against terrorists and other threats, and 
promote safe and efficient international travel and tourism to the 
United States.
    Chairman Katko, Ranking Member Rice, and Members of the 
subcommittee, thank you for the opportunity to testify today. We look 
forward to answering your questions.

    Mr. Katko. Thank you, Mr. Stodder.
    I now recognize Mr. Kurt Tong, principal deputy assistant 
secretary for the Bureau of Economic and Business Affairs at 
the U.S. State Department, for his testimony.

 STATEMENT OF KURT TONG, PRINCIPAL DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF ECONOMIC AND BUSINESS AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Tong. Thank you, Chairman Katko, Ranking Member Rice, 
distinguished Members of the committee. I welcome this 
opportunity to testify on behalf of the Department of State 
regarding the process and rationale for negotiating an 
arrangement--the arrangement recently signed between the United 
States and Cuba on international air transportation between our 
2 countries.
    Consistent with U.S. law and long-standing practice, the 
Department of State leads U.S. delegations in negotiating with 
foreign governments on bilateral aviation agreements and 
arrangements, in consultation with the Departments of 
Transportation and Commerce and other departments and agencies 
as appropriate. Shortly after the President's December 17, 2014 
announcement that the United States would be taking a number of 
steps to work towards normalizing relations with Cuba, and 
after coordinating with all relevant agencies, the Department 
of State approached the government of Cuba to propose technical 
discussions on restoring scheduled commercial air service.
    For many years all air travel between the United States and 
Cuba has been via charter service. Charter flights have 
adequately served the relatively low levels of travel between 
the United States and Cuba during those decades of strained 
relations, but amid the process of normalization, the 
administration aimed to expand authorized travel and people-to-
people contacts between the United States and Cuba.
    By expanding people-to-people ties, we believe that we can 
more effectively support the aspirations of the Cuban people 
for a better life. The administration therefore concluded that 
restoring scheduled air service would be necessary to 
accomplish those objectives. The Cuban government accepted our 
proposal to hold technical discussions about the modalities for 
restoring scheduled air service, and the department also 
informed U.S. industry about our plans and received the airline 
industry's full and enthusiastic support for this effort.
    The United States and Cuban governments held 3 rounds of 
technical discussions in March, September, and December of 
2015, and the U.S. delegation comprised officials from 5 
Federal agencies: The Departments of State, Transportation, and 
Commerce, as well as the Transportation Security Administration 
and the Department of Treasury's Office of Foreign Assets 
Control. OFAC simultaneously also amended its Cuban Assets 
Control Regulations in January 2015 to allow, by general 
license, U.S. carriers to offer scheduled service between the 
United States and Cuba to authorized travelers.
    At the third round of consultations in Washington in 
December 2015, the United States and Cuba finalized the text of 
a memorandum of understanding, which was signed in Havana in 
February 2016 by Secretary of Transportation Anthony Foxx and 
Assistant Secretary of State for Economic and Business Affairs 
Charles Rivkin signing for the United States.
    This MOU is an informal, non-binding arrangement 
delineating the terms for international air transportation 
between the 2 countries. With respect to scheduled service, the 
MOU provides for U.S. carriers to operate 20 daily round-trip 
frequencies to Havana and 10 daily round-trip frequencies to 
each of the 9 other Cuban cities with an international airport. 
It also provides for charter services to continue to operate 
without limitation.
    U.S. carriers, the reaction from them, they are very eager 
to offer scheduled service to Cuba, and they universally 
welcome the new MOU and have now submitted applications to the 
Department of Transportation to operate flights on specific 
routes to Havana and other Cuban cities.
    In the case of Havana, applications for U.S. carriers far 
exceed the MOU's limit of 20 frequencies per day. The 
Department of Transportation is currently conducting a 
frequency allocation proceeding to determine which U.S. 
carriers will receive frequencies--that procedure based on the 
public interest.
    We believe this new MOU will support the objectives of 
promoting authorized travel between the United States and Cuba 
and people-to-people contacts. The MOU will also generate new 
business opportunities for the U.S. aviation industry and help 
create American jobs.
    If I could anticipate a couple of questions with regard to 
the use of an informal arrangement at this time, the reason why 
we had a limited negotiating objective, dissimilar from our 
usual approach with bilateral--such bilateral negotiations, 
which is to aim for an open-skies agreement fitting our open-
skies model, was based upon our understanding of, if you will, 
how much the traffic would bear in terms of demand, given the 
on-going restrictions on travel and trade between the United 
States and Cuba.
    Throughout the negotiations with Cuba, the U.S. negotiators 
carefully articulated to Cuban counterparts those aspects of 
U.S. regulations affecting Cuba that have changed and those 
that have not changed. For example, the MOU does not affect or 
change current U.S. travel restrictions; it does not change--
persons subject to U.S. jurisdiction who travel to Cuba must 
still be authorized by general or specific license under one of 
the 13 categories of authorized travel.
    While negotiating the MOU, the U.S. and Cuban governments 
reaffirmed their commitment to strengthen their already close 
cooperation on aviation safety and aviation security matters. 
They reaffirmed their commitment to abide by the provisions of 
international conventions relating to aviation security and to 
act in conformity with aviation security standards and 
appropriate recommended practices established by the 
International Civil Aviation Organization.
    As noted, a representative of the Transportation Security 
Administration participated in the U.S. delegation throughout 
these negotiations and provided valuable advice on TSA's on-
going cooperation with the Cuban government to strengthen 
aviation security.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Tong follows:]
                    Prepared Statement of Kurt Tong
                              May 17, 2016
    Good morning, Chairman Katko, Ranking Member Rice, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the role of the 
Department of State, Bureau for Economic and Business Affairs, in 
negotiating the informal arrangement recently signed between the United 
States and Cuba on international air transportation between the 2 
countries.
    Consistent with U.S. law and long-standing practice, the Department 
of State leads U.S. delegations in negotiations with foreign 
governments on bilateral aviation agreements and arrangements, in 
consultation with the Departments of Transportation and Commerce and 
other Departments and agencies, as appropriate.
    Shortly after the President's December 17, 2014, announcement that 
the United States would be taking a number of steps to work toward 
normalizing relations with Cuba, and after coordinating with all 
relevant agencies, the Department of State approached the government of 
Cuba to propose technical discussions on restoring scheduled commercial 
air service. For many years, all air travel between the United States 
and Cuba has been via charter service. Charter flights have adequately 
served the relatively low levels of travel between the United States 
and Cuba during decades of strained relations. Amid the process of 
normalization, the administration aimed to expand authorized travel and 
people-to-people contacts between the United States and Cuba. By 
expanding people-to-people ties, we believe we can more effectively 
support the Cuban people. The administration concluded that restoring 
scheduled air service would be necessary to accomplish those 
objectives. The Cuban government accepted our proposal to hold 
technical discussions about the modalities for restoring scheduled air 
service. The Department also informed U.S. industry about our plans and 
received the airline industry's full support for this effort.
    The U.S. and Cuban governments held 3 rounds of technical 
discussions: In Washington in March and December 2015 and in Havana in 
September 2015. The U.S. delegation comprised officials from 5 Federal 
agencies: the Departments of State, Transportation, and Commerce, as 
well as the Transportation Security Administration and the Department 
of the Treasury, Office of Foreign Assets Control (OFAC). OFAC also 
amended its Cuban Assets Control Regulations (31 C.F.R. Part 515) in 
January 2015 to allow by general license U.S. carriers to offer 
scheduled service between the United States and Cuba to authorized 
travelers.
    At the third round of consultations in Washington in December 2015, 
the United States and Cuba finalized the text of a Memorandum of 
Understanding (MOU), which was signed in Havana in February 2016. 
Secretary of Transportation Anthony Foxx and Assistant Secretary of 
State for Economic and Business Affairs Charles Rivkin signed for the 
United States. The Cuban Minister of Transportation and head of the 
Cuban Civil Aviation Authority signed for Cuba.
    The MOU is an informal, non-binding arrangement delineating the 
terms for international air transportation between the countries. With 
respect to scheduled service, the MOU provides for U.S. carriers to 
operate 20 daily round-trip frequencies to Havana and 10 daily round-
trip frequencies to each of the 9 other Cuban cities with an 
international airport. It also provides for charter service to continue 
to operate without limitation.
    U.S. carriers are eager to offer scheduled service to Cuba. They 
universally-welcomed the new MOU and have now submitted applications to 
the Department of Transportation (DOT) to operate flights on specific 
routes to Havana and other Cuban cities. In the case of Havana, 
applications from U.S. carriers far exceed the MOU's limit of 20 
frequencies per day. DOT is currently conducting a frequency allocation 
proceeding to determine which U.S. carriers will receive frequencies, 
based on the public interest.
    We believe this new MOU will support the objectives of promoting 
authorized travel between the United States and Cuba and people-to-
people contacts. The MOU will also generate new business opportunities 
for the U.S. aviation industry and help create American jobs.
    Throughout the negotiations with Cuba, U.S. negotiators carefully 
articulated to Cuban counterparts those aspects of U.S. regulations 
affecting Cuba that have changed and those that have not changed. For 
example, the MOU does not affect or change current U.S. travel 
restrictions; persons subject to U.S. jurisdiction who travel to Cuba 
still must be authorized by general or specific license under one of 
the 12 categories of authorized travel.
    While negotiating the MOU, the U.S. and Cuban governments 
reaffirmed their commitment to strengthen their already close 
cooperation on aviation safety and security matters. They affirmed 
their commitment to abide by the provisions of international 
conventions relating to aviation security, and to act in conformity 
with aviation security standards and appropriate recommended practices 
established by the International Civil Aviation Organization. As noted, 
a representative of the Transportation Security Administration (TSA) 
participated in the U.S. delegation to these negotiations and provided 
valuable advice on TSA's on-going cooperation with the Cuban government 
to strengthen aviation security.
    Thank you very much. I look forward to any questions you may have.

    Mr. Katko. Thank you, Mr. Tong, for your testimony. I 
understand you have a hard stop at 3:30?
    Mr. Tong. I would like to be able to honor that because I 
don't want to create a diplomatic incident with a Japanese 
colleague who is doing a panel together with me at 3:30.
    Mr. Katko. I understand that. So I think we can dismiss you 
now but, Mr. Tong, I want to thank you for your testimony, and 
Members will provide you with questions in writing and we would 
appreciate your responses within a 10-day period. At this time 
you are dismissed, so thank you very----
    Mr. Tong. I look forward to responding. Thank you.
    Mr. Katko. I also want to ask unanimous consent that the 
gentleman from Pennsylvania, Mr. Perry, be allowed to sit on 
the dais and participate in today's hearing.
    Without objection, so ordered.
    I now recognize myself for 5 minutes of questions.
    I thank you gentleman for all being here this afternoon, 
and I doubt that I am going to get through everything I can in 
the first round here, but we will see. I would appreciate, you 
know, brief and concise answers to the best of your ability, 
and I will start with Mr. Mizell.
    Mr. Mizell, what is your title currently?
    Mr. Mizell. My current title is TSA representative. I am 
based in Nassau, Bahamas, and it covers several different 
countries, most particularly being Cuba, Haiti, and the 
Bahamas.
    Mr. Katko. Thank you.
    In that capacity, have you been asked to review the 
airports--the LPD airports in question in Cuba?
    Mr. Mizell. I don't necessarily review them. I am not an 
inspector. My goal is to--and my job is to work with the 
foreign government--the government of Cuba in this case--and 
ensure that they meet all the security requirements that 
currently exist.
    I share with them best practices, lessons learned. One very 
important aspect of my job is to ensure that once the 
inspectors have identified a deficiency, if any, I work closely 
with the Government to ensure that that deficiency is 
corrected.
    Mr. Katko. Have you visited the 10 LPD airports?
    Mr. Mizell. I have not visited the 10 LPDs. There are only 
currently 7 LPDs----
    Mr. Katko. How many have you visited?
    Mr. Mizell. I have visited all 7 of the----
    Mr. Katko. Okay. Thank you.
    Now, with respect to the ones that you have visited, do you 
recall speaking with us prior to coming in here today and 
giving us some general under--general findings from those 
visits? Do you remember telling us about the general--what you 
general--your general observations from those visits?
    Mr. Mizell. Yes, sir.
    Mr. Katko. Okay.
    Now, can you tell me in those 7 airports that you visited, 
how many of them have explosive trace detection equipment?
    Mr. Mizell. The last time I spoke with you, sir, we were in 
a closed session and I spoke frankly about what we had and what 
we did not have within Cuba. With this open session I am 
reluctant to get into exactly what equipment they have.
    Mr. Katko. Let me pause for a moment, please.
    So just for the record--I want to be clear--are you saying 
that the information you provided to us in a non-secure setting 
is considered SSI information?
    Mr. Mizell. Yes, sir.
    Mr. Katko. Okay. Then we will probably have to move this to 
a secure hearing at some point. Is that correct?
    Okay. Give me 1 second.
    Okay. I just want to make sure the record is clear. You 
understand I have to make a record as well, sir.
    Now, with respect to the canine discussion we had with 
respect to those 7 LPDs, is it your still--is it your 
understanding or your position that those are also SSI?
    Mr. Mizell. Yes, sir. It is a level of security that is out 
there, so again, SSI.
    Mr. Katko. Okay. With respect to your discussion about body 
scanners, you are saying that is SSI as well?
    Mr. Mizell. Yes, sir. All of the equipment.
    Mr. Katko. Okay. With respect to the training that we 
discuss, the lack thereof, of the Cuban airport personnel, is 
that also SSI in your opinion?
    Mr. Mizell. We don't conduct training, so there is nothing 
to discuss, really.
    Mr. Katko. Well, let's discuss that, then, if there is 
nothing to discuss of a sensitive nature. Do you know how the 
Cuban authorities train their airport personnel?
    Mr. Mizell. No, sir.
    Mr. Katko. Okay. Do you have any idea what type of 
background checks are done of Cuban employees that are 
entrusted with scanning documents and bags that come into the 
airports?
    Mr. Mizell. I do not.
    Mr. Katko. Does anybody in the United States Government 
have any idea what that is?
    Mr. Fujimara. Sir. Yes, sir.
    Mr. Katko. And you are Mr. Fujimura, yes.
    Mr. Fujimara. Thank you, sir. The TSA Foreign Airport 
Assessment program is--operates under the authority of Title 49 
U.S. Code----
    Mr. Katko. Mr. Fujimura, I am sorry--time. Do you 
understand if there is any training--what type of training 
these airport personnel have?
    Mr. Fujimara. Yes, sir. So the ICAO standards require that 
airport personnel who work at the airport are trained and 
undergo background investigations and are cleared according to 
the national authorities operating Cuba.
    Our TSSs, our inspectors, have gone to Cuba and they have 
ascertained that Cuba does meet all the ICAO standards, 
including in access control and background checks, sir.
    Mr. Katko. Thank you very much.
    Now, with respect to the--I think, Mr. Stodder, you 
mentioned it--document verification, or the travel documents--
and I know we spoke about the document verification 
capabilities or lack thereof with respect to the Cuban 
airports. Do you consider those answers that you gave us in 
that meeting to be SSI as well?
    Mr. Mizell. Yes, sir.
    Mr. Katko. Okay. All right.
    Somebody mentioned the Federal Air Marshal Service here. 
Who mentioned? Mr. Stodder?
    Mr. Stodder. Yes.
    Mr. Katko. Thank you. With respect to the Federal Air 
Marshal Service, is it your testimony that there will be no 
flights from the United States--from Cuba to the United States 
unless the Federal Air Marshal Service has been allowed to be 
on those flights, like they normally do elsewhere in the world?
    Mr. Stodder. Yes.
    [Additional information follows:]
               Supplemental Information Submitted by DHS
    DHS encourages countries with Last-Point-of-Departure air carrier 
service to the United States to enter into agreements or arrangements 
regarding the deployment of Federal Air Marshals, but it is not a legal 
requirement. There are many additional passenger flights to the United 
States from countries with which there is no such agreement or 
arrangement in place. DHS is exploring the possibility of negotiating 
an agreement or arrangement in place. DHS is exploring the possibility 
of negotiating an agreement or arrangement with Cuba regarding the 
deployment of Federal Air Marshals on scheduled flights. DHS recently 
completed negotiations of an arrangement that would cover charter 
flights.

    Mr. Katko. Okay. Thank you. You just don't know what that 
time frame is?
    Mr. Stodder. I mean, that agreement is still being under 
negotiation, but it is being negotiated now.
    Mr. Katko. So there will be no flights until that--until 
the Federal Air Marshals are allowed to be on the flights?
    Mr. Stodder. Correct.
    [Additional information follows:]
               Supplemental Information Submitted by DHS
    DHS encourages countries with Last Point of Departure air carrier 
service to the United States to enter into agreements or arrangements 
regarding the deployment of Federal Air Marshals, but it is not a legal 
requirement. There are many additional passenger flights to the United 
States from countries with which there is no such agreement or 
arrangement in place. DHS is exploring the possibility of negotiating 
an agreement or arrangement in place, including current flights between 
the United States and Cuba. DHS is exploring the possibility of 
negotiating an agreement or arrangement with Cuba regarding the 
deployment of Federal Air Marshals on scheduled flights. DHS recently 
completed negotiations of an arrangement that would cover charter 
flights.

    Mr. Katko. Okay. And when do you expect flights to begin 
between--the commercial flights to begin between the United 
States and Cuba?
    Mr. Stodder. That is really a question for the Department 
of Transportation at this point. I mean, that is really more in 
their hands.
    Mr. Katko. What do you anticipate?
    Mr. Stodder. We don't know.
    Mr. Katko. Okay.
    Now, Mr. Mizell or others that are handling this SSI 
inquiry that we spoke about, I paused us because I did not 
understand that to be matters of importance because you did not 
delineate that when we spoke; we simply sat down and had a 
conversation in a non-secure setting. So forgive me for raising 
those questions. But we are going to submit questions to you 
and you are going to--and I want you to designate for us which 
ones you believe to be SSI.
    Now, is it fair to say, though, during that meeting that 
you had some pretty significant concerns about some of the 
security aspects at those airports?
    Mr. Mizell. The concerns I had that I shared with you was 
over a 5-year period. Certainly I had concerns at the 
beginning, which I don't have now.
    Mr. Katko. So you don't have any concerns whatsoever right 
now?
    Mr. Mizell. Right now the government of Cuba airports that 
have been assessed and inspected by the inspectors meet ICAO 
standards.
    Mr. Katko. Now, that is not my question, sir. My question 
is I am talking about you. Based on your personal observations, 
do you have concerns? Because you certainly--you annunciated 
those to us in that meeting.
    Mr. Mizell. I shared concerns with you from what I saw 
early on, which was quite different than the situation we have 
today.
    Mr. Katko. So it is your testimony here today that you have 
no more concerns about any of the security aspects at these LPD 
airports?
    Mr. Mizell. My testimony is that they meet the standards 
required by ICAO.
    Mr. Katko. That is not the question, sir.
    Mr. Mizell. As long as they meet the standards required by 
ICAO, if there is anything else I can do to improve security, I 
will certainly do so.
    Mr. Katko. Okay. I will try and ask one more time: Do you 
have any concerns about the security aspects at those airports, 
based on your own personal opinion?
    Mr. Mizell. My same answer applies, sir. The concerns I 
have are very minor compared to what we were looking at 5 years 
ago.
    Mr. Katko. So, okay, but you are still not going to answer 
the question of whether you have concerns or not?
    Mr. Mizell. Sir, they meet ICAO standards.
    Mr. Katko. Okay. We will move on.
    I have one question, and I--any of you gentlemen can answer 
this question if you would like. The question I have is why the 
rush? Why the rush to open 10 airports, which is an awfully 
large number of airports, from a country that we have had very 
little relationship with in the past 5 decades? Why the rush in 
getting this done so quickly?
    Why 10 airports to start? Why not start with a few and see 
how it goes?
    Mr. Stodder. That is a question really sort-of best 
directed, I think, to the Department of Transportation and the 
State Department, with regard to the U.S.--broader U.S. policy 
on opening commercial aviation with Cuba.
    Mr. Katko. You don't have any opinion on the matter?
    Mr. Stodder. I don't really have an opinion on that.
    Mr. Katko. Okay.
    Anybody else have any input on that?
    Mr. Fujimara. Sir, I would note that, as Mr. Tong pointed 
out, public charters have been operating for some time, and 
they are operating from 6 current last-point-of-departure 
airports, and they fully meet ICAO standards, and we are 
completely comfortable with the security standards that are 
being met on those flights.
    Mr. Katko. Okay. Well, you are talking about approximately 
100 more flights a day. Is that correct?
    Mr. Fujimara. Sir, I think the number of flights is a 
Department of Transportation question that is not my area, sir.
    Mr. Katko. Well, if your area is security, assuming there 
are 100 more flights a day, which we have been told at least 
that--perhaps as many as 110 a day--isn't it fair to say that 
the infrastructure at those airports is such that it may put 
stress on the infrastructure capabilities quite a bit?
    Mr. Fujimara. Sir, I wouldn't want to speculate on the 
capacity of the Cuban infrastructure. I would note, however, 
that flights from Europe involving many of the major European 
carriers are flying into Cuba every day, as well as regional 
traffic is coming in and out of Cuba. It is a very heavily 
trafficked airport, so I would note that and that there are--
is--they are currently meeting all ICAO standards and major 
aircraft operators are comfortable flying in and out of Cuba, 
as well.
    Mr. Katko. Have you been to Cuba yourself and have observed 
these airports?
    Mr. Fujimara. No, sir, I have not been to Cuba.
    Mr. Katko. Okay.
    Mr. Mizell, you have been to Cuba and you have observed the 
Havana airport. Am I correct?
    Mr. Mizell. That is correct.
    Mr. Katko. Is it fair to say that it is going to put a 
stress on that airport when they have an increase--a large 
increase in the passenger travel there?
    Mr. Mizell. I know the Cubans have been working on terminal 
3, where the international flights all come into. The number of 
flights into each terminal has not been determined; that is 
something that will be worked out between the Cubans and the 
air carriers. So whether or not there is going to be a crunch 
remains to be seen.
    Mr. Katko. Do you have any observations based on what you 
have learned so far? Because you certainly expressed them to us 
before.
    Mr. Mizell. The only observations that I observed that were 
of concern was the fact that they lacked a couple of buses so 
when it was raining we had delays getting off the aircraft.
    Mr. Katko. No other concerns?
    Mr. Mizell. No, sir.
    Mr. Katko. Okay.
    Thank you for your time.
    Miss Rice. I now recognize Miss Rice for 5 minutes of 
questioning.
    Miss Rice. So I just want to assure all of you that this is 
not a criminal inquiry, much to the, you know, to the tone that 
the questions have taken so far. I like to think that this is 
an information-gathering hearing, that all of you clearly feel 
that you have some information that would be good to see 
exactly how this whole process is being set up.
    One of the questions that I have for you, Mr. Mizell, which 
I think you will be able to answer is: Is it--is there--has 
there been a statement on behalf of the Cuban government that 
they are going to be investing in infrastructure to be able to 
deal with the increase in tourism and flights and cruise ships 
and everything else, in terms of now that, you know, the--there 
is this new relationship?
    Mr. Mizell. The investment into the cruise ship industry I 
am not familiar with.
    Miss Rice. I am just talking about in terms of what 
Chairman Katko was just asking about, in terms of does the--can 
the infrastructure handle this? Has there been a commitment, to 
the best of your knowledge, by the Cuban government to actually 
put money into the infrastructure to be able to handle the 
increase in flights if they--it comes to that point?
    Mr. Mizell. As I mentioned, they have a project underway at 
terminal 3, where the international flights come into other 
than U.S. flights. Whether or not the Cuban government plans to 
divert some of the U.S. flights to terminal 3 remains to be 
seen.
    Miss Rice. Mr. Fujimura, I have a question for you. There 
are 7 airports that are LPD airports in Cuba that we are 
talking about here, although the number 10 has been thrown 
around. We are talking about 7 airports?
    Mr. Fujimara. There are currently 7 LPD-designated airports 
but only 6 are active at this time for----
    Miss Rice. So we will work with----
    Mr. Fujimara [continuing]. Public charter flights.
    Miss Rice. So we will work with the number 6. So with the 
inspection of these 6 LPD airports by the TSA, any different 
than any other airport operating as an LPD airport anywhere 
around the world?
    Mr. Fujimara. No. Our TSA assessment program is very 
standardized. We have a cadre of about 150 inspectors who work 
around the world and they follow a very clearly-articulated job 
aid, that assists them in conducting these assessments. It is a 
very regular process that we operate around the world.
    Miss Rice. Now, how regularly is the TSA going to be 
inspecting the 6 LPD airports in Cuba?
    Mr. Fujimara. We will be there annually to look at the 
airports on a regular basis. If we are talking about any kind 
of start of service or changes, our TSA inspectors are there 
before service starts up, while service is starting to ensure 
that everything is going smoothly, and they will be there 
afterwards after about a 30-day period to make sure that 
operations are running smoothly and normally and in accordance 
with ICAO standards.
    Miss Rice. So now, in your opinion, how secure is flying to 
and from Cuban airports compared to any other LPD airports in 
the world?
    Mr. Fujimara. I would be very comfortable flying from Cuba 
myself. They meet international standards.
    Miss Rice. So, you know, we were talking before about the 
Inspire--the most recent issue of Inspire magazine. If you 
think you can answer this, can you talk a little bit about 
where you think Cuba fits into the larger threat picture that 
TSA and all of us are concerned about not just here but in 
other LPD airports abroad?
    Mr. Fujimara. Thank you. So the Inspire magazine which came 
out on the 15th of May is still being evaluated by the 
intelligence community, but it clearly articulates a focus from 
al-Qaeda in the Arabian Peninsula on aviation, on targeting 
aviation. Recent events, including Metrojet, which you have 
talked about, the Daallo aircraft in Somalia, Brussels, Paris--
these indicate to me an--a focus for us on Africa, Middle East, 
and perhaps the foreign fighter issue in Europe being a major 
concern for aviation.
    Miss Rice. Now, so that is not to say that Cuba could not 
become a focus in the future, correct? Is TSA working towards 
ensuring that the--all of the databases that are available to 
us here and other countries, especially LPD airports, are going 
to be accessible to the Cuban government when they do their 
assessment before----
    Mr. Fujimara. Absolutely.
    Miss Rice [continuing]. During that process?
    Mr. Fujimara. We will not take our eye off the ball on any 
of the LPD airports. In fact, the big advantage--the value add 
that TSA puts on these LPD traffic is we know who is coming our 
way. Through Secure Flight we are vetting--we have master crew 
lists; we have crew manifests; we have passenger manifests that 
we partner with with our colleagues from CBP. We have a very 
clear idea of who is coming our way, whether they are on any 
kind of watch list.
    So on top of the physical security that is undertaken at 
that last-point-of-departure airport, we are--at TSA and at CBP 
we are--we have the advantage, again of having a very good idea 
of the identity and the person--and the kind of person who is 
coming to our country.
    Miss Rice. Has anyone on this panel been asked in their 
duties and responsibilities vis-a-vis opening up travel between 
the United States and Cuba to cut any kind of corners in terms 
of security or anything like that? Any of you, have you ever--
have any of you been asked to cut corners to ensure that this 
gets done in a timely manner?
    Mr. Stodder. Not at all.
    Mr. Fujimara. No.
    Miss Rice. Okay.
    Thank you. I don't have anything further.
    Mr. Katko. Thank you, Miss Rice. But I must take issue with 
your reference to a criminal inquiry. The reason for the nature 
and tone of my questioning was because when we met with Mr. 
Mizell previously, not once did he say that any of the 
information was of a sensitive or SSI nature, and not once 
before the hearing today did anybody at Homeland Security or 
TSA make any mention that that information was of a sensitive 
nature.
    Why that information is so important is because the 
information Mr. Mizell delineated offered serious concerns 
about the nature and quality of the equipment at those airports 
throughout Cuba. So----
    Miss Rice. Well, I understand that there was some----
    Mr. Katko. Let me finish, please. Let me finish, please.
    We had a very robust discussion, what I thought was a very 
helpful discussion, what I thought was a very fruitful 
discussion, and I also encountered 2 weeks at least--my staff 
did--at least 2 weeks of back-and-forth trying simply to get 
Mr. Mizell to come here today because it was resisted 
repeatedly for 2 weeks at least. My staff spent a good part of 
a full week just trying to get, without a subpoena, to get you 
to produce the witness we wanted you to produce.
    Then when you get here today for the very first time we 
hear that this--the stuff that you talked about in an open 
setting was considered to be SSI. Well, if you did that earlier 
we wouldn't have had that back-and-forth, we wouldn't have had 
this--wouldn't have had to have the tone of the inquiry we had 
today. So I think----
    Miss Rice. Why do you have to take that tone anyway?
    Mr. Katko. Well----
    Miss Rice. Why don't you just ask him the question? We are 
all adults----
    Mr. Katko. We did ask the question----
    Miss Rice. We are all professionals. There is no reason to 
adopt that--with all due respect to everyone here, and everyone 
can adopt whatever tone they want, but if you want to get 
answers, we are not prosecutors anymore. We are not. No one 
here. Mr. Ratcliffe is not; Mr. Katko is not; neither am I.
    Mr. Katko. Yes, but we have a solemn duty to our country to 
make sure that we do proper oversight of TSA.
    Miss Rice. Then don't play politics.
    Mr. Katko. We are----
    Miss Rice. Just ask a question----
    Mr. Katko. There is no----
    Miss Rice [continuing]. And ask for an answer.
    Mr. Katko. Miss Rice----
    Miss Rice. That is it.
    Mr. Katko [continuing]. There is no politics going on here. 
We simply are trying to get the answers to----
    Miss Rice. Then don't sound like it----
    Mr. Katko [continuing]. To very--
    Miss Rice [continuing]. Because it sounds to me like we are 
playing politics here, and there is no reason----
    Mr. Katko. I would like to reclaim my time. Thank you, Miss 
Rice.
    The bottom line is we are trying to get to the bottom of 
what we consider to be very grave concerns we have about the 
opening of these airports before the rest of the inquiry is 
done.
    Miss Rice. If you really were, you wouldn't be doing it in 
this setting.
    Mr. Katko. I have reclaimed my time, please. We were 
expecting fully to have Mr. Mizell tell us the things he told 
us because we had no idea that Mr. Mizell was going to claim 
that this stuff was SSI. So that was the nature of the inquiry.
    So if you have--take issue with my tone, let me apologize 
for that. But I do have the interest of our country is the 
biggest thing at stake to us, and making sure that the airline 
is safe and that people are safe.
    Now, overlaid with all this is an article in the Washington 
Post that happened--that came out recently talking about 
Afghanistan individuals trying to use false Cuban documents to 
get into Cuba and ultimately into the United States. So there 
is serious concerns. I am not saying that anybody here is 
involved in malfeasance; we are simply trying to get the facts 
out.
    Mr. Mizell, if any of you took issue with my tone, let me 
apologize for that, but let me understand that the interest of 
this country and the interest of keeping the airlines safe and 
making sure that before you open up travel to a former 
communist country that there has been testimony this year 
saying that there are still very major concerns about the 
counterespionage activities that we make sure we dot our i's 
and cross our t's, and I hope you understand that.
    Miss Rice. Well, if I could just interject--and I am sure 
as the Ranking Member you would give me that opportunity to do 
that--then let's not make it us versus them. No one has a 
corner on the market of National security. There isn't a 
Democrat or a Republican in this Congress who doesn't have a 
priority of keeping this country safe.
    If you want to really get to the bottom of whether or not 
the proper analysis is going forward before we open up actual 
travel, again, and normalize--this is part of the normalization 
of relationships, then do it in a private setting where we can 
get the real information instead of putting on a show and 
asking questions that people can't answer. That is all I am 
asking for. Let's just take the politics out of this clearly 
politicized issue and get to the heart of the matter here.
    Mr. Katko. We were attempting to do that today, Miss Rice. 
Thank you very much.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank all of you for being here. I will preface my remarks 
by apologizing for my tone.
    Have any of you ever been to Cuba? You have been to Cuba? 
Just raise your hand.
    Well I have, and I think this is the most ludicrous thing 
that I have ever heard of that we are going to open up 
commercial travel to Cuba. You know, when I visited Cuba I was 
really excited because we had dinner one night with an 83-year-
old and 23-year-old, and I kind of knew what to expect out of 
the 83-year-old, but the 23-year-old I was really interested in 
knowing what that person would have to say.
    I was appalled to learn that that person actually believed 
the United States of America had dropped the atomic bomb on 
Pearl--or, excuse me, on Japan after they had surrendered. 
Honest Injun, that is what she told me. Could not believe it. I 
was appalled to hear that.
    Let me ask you, Mr. Fujimura, once the commercial service 
to Cuba begins, how many passengers do you anticipate having 
come and go to Cuba--come from Cuba to America and go to Cuba 
from America?
    Mr. Fujimara. Sir, the scheduled commercial service that 
you are referencing, that would be a Department of 
Transportation economic estimate----
    Mr. Carter. Okay. Okay, I have heard that. You know, I got 
3 minutes and 41 seconds left. Let me tell you again about my 
trip to Cuba.
    They hate capitalism. They hate everything we stand for. I 
learned that in my trip to Cuba. I can tell you that.
    They hate America. They do not hate us as Americans, but 
they do hate America and what we represent.
    They blame us for all of their economic woes. Everything.
    This was not just the 83-year-old and the 23-year-old. 
Everyone that I had the opportunity to speak to over there felt 
the same way.
    I took great offense to that. Great offense. I love 
America. I think it is the greatest country ever in the history 
of the world.
    I can't for the life of me understand--you know, I will 
tell you another story. We had the opportunity to visit with 
some journalists and I asked them--I had the opportunity to ask 
them, I said, ``You know, are they--are--is the regime still 
taking political prisoners?''
    On a stack of Bibles I will tell you this was their answer: 
``Yes, they are still taking them, but they are not keeping 
them as long anymore.''
    Well, there you go. That is progress.
    What do you think is going to happen? I want to know your 
personal opinion--as Americans, I want to know your personal 
opinion: What do you think is going to happen whenever we open 
up travel between these 2 countries, their economy starts doing 
better? You think that is going to suppress the current regime 
over there?
    Do any of you think that is going to suppress them? Do any 
of you think that that is only going to empower them even more 
than they are now? I am interested to know. Anyone? Anyone?
    Mr. Stodder, please.
    Mr. Stodder. I mean, I am not going to--I mean, I can't 
opine on that. I mean, all I can say is that, I mean, we, as 
representatives of the Department of Homeland Security, are 
focused on the security of air transit between Cuba and the 
United States.
    Mr. Carter. I understand that. I wasn't asking you as a 
representative of whatever you said; I was asking you as 
Americans.
    Mr. Stodder. I am here testifying as a assistant secretary 
of----
    Mr. Carter. Not as an American?
    Mr. Stodder [continuing]. And as an American citizen, 
certainly. But----
    Mr. Carter. That is what I was asking, as an American 
citizen.
    Mr. Stodder. I mean, that is--I am testifying as a 
representative of the Department of Homeland Security, and the 
focus of the Department of Homeland Security is ensuring the 
security of commercial aviation and other aviation between Cuba 
and the United States.
    Mr. Carter. Okay. Well then let me ask you--help me out 
here, Mr. Stodder. Help me understand the difference between 
what international requirements are for checking and for going 
through security and what American TSA policies are and 
requirements are. Are they the same--one and the same?
    Mr. Stodder. With regard to international aviation from 
last points of departure for flights to the United States, TSA 
enforces and inspects airports to ensure they meet 
international standards under the ICAO standards. So that is 
one piece of it, as I discussed in my opening testimony. So 
that is one piece, which is ensuring the security of the 
airports themselves.
    But then also CBP and TSA both have a role with regard to 
vetting----
    Mr. Carter. Is that what I asked you? I thought I asked you 
were they one and the same?
    Mr. Stodder. The standards----
    Mr. Carter. Are they the same standards?
    Mr. Fujimura.
    Mr. Fujimara. Yes, sir. I can take that one.
    Mr. Carter. Okay, good.
    Mr. Fujimara. So the difference between what TSA standards 
are and what--ICAO standards set are performance-based. They 
set what should happen. What TSA does is when we assess we 
assess how well those performance measures are being carried 
out, those standards and recommended practices are being 
carried out.
    In the United States TSA's SOPs are much more 
proscriptive--prescriptive.
    Mr. Carter. Much more prescriptive. Just let me ask you 
this, just straightforward as I can be: Are you as comfortable 
with someone coming out of Cuba as you would be for someone 
coming out of America?
    Mr. Fujimara. Sir, of course I believe that at TSA we have 
a gold standard----
    Mr. Carter. Is that yes or no? That is all yes or no.
    Mr. Fujimara. Yes, sir. I am very comfortable traveling 
internationally from places----
    Mr. Carter. No. Someone who has gone through security in 
Cuba and is now coming over to America--are you as confident 
that they have been vetted as someone who is leaving America 
and going to Cuba?
    Mr. Fujimara. Sir, they meet international standards----
    Mr. Carter. Okay. I can see where this is going.
    Let me say again, y'all need to go to Cuba. I have been 
there and I have seen it, and I am not in favor of this at all. 
I can tell you, not only am I not in favor of it, I think it is 
the worst thing we could do. The worst thing that we could 
possibly do.
    Mr. Chairman, I apologize for my tone, and I yield back.
    Mr. Katko. The Chair now recognizes Mr. Ratcliffe for 5 
minutes of testimony.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    I will do my best to leave politics out of this, but I 
think we all have to acknowledge--and hopefully my friend and 
colleague from across the aisle, who I respect greatly, Miss 
Rice, would agree with me--we have to acknowledge that, as he 
is often wont to do with a stroke of a pen, President Obama did 
announce a dramatic shift in U.S. policy here, this time 
towards Cuba.
    We are all left to adjust to that, and I appreciate the 
witnesses being here. The Department of Homeland Security 
obviously will be tasked with implementing and enforcing the 
new trade and travel regulations as a result of the policy 
changes that this administration wants to invoke.
    So I appreciate you all being here today to provide 
clarity. Regardless of tone, I think we have got a 
responsibility on this committee for oversight, and that 
oversight responsibility is to protect the American people as 
they travel.
    So to that point, let me start with you, Mr. Fujimura. I 
want to make sure I understand all the facts straight here. So 
the U.S. embargo on Cuba prohibits TSA from lending airport 
screening technologies to Cuba, correct?
    Mr. Fujimara. So that is my understanding of the 
restrictions, that we are not allowed to provide training or 
equipment to Cuba.
    Mr. Ratcliffe. Right. Okay.
    Likewise, the U.S. embargo prohibits the Cuban government 
from buying these types of high-quality checkpoint screening 
equipment from the United States.
    Mr. Fujimara. Sir, that is my understanding, as well.
    [Additional information follows:]
               Supplemental Information Submitted by DHS
    As part of a series of amendments to Cuba sanctions regulations, 
the Department of Commerce's Bureau of Industry and Security (BIS) 
amended its Export Administration Regulations to create a general 
policy of approval for export license applications involving items to 
ensure the safety of civil aviation and the safe operation of 
commercial aircraft engaged in iinternational air transportation. This 
means that the Government of Cuba could purchase related equipment from 
U.S. companies, if the exporter applies for and obtains authorization 
from BIS. Given statutory limitations on the provision of assistance to 
Cuba, the U.S. Government does nto currently provide such equipment to 
Cuba.

    Mr. Ratcliffe. Okay. I know from Mr. Mizell's testimony 
there is some question about whether Cuba has or, in fact, 
lacks the equipment that the United States would deem necessary 
to conduct some aspects--important aspects--of screening, like 
explosive trace detection equipment and properly-trained bomb-
sniffing dogs. I think it has been further evidenced that the 
Cuban government apparently only has 2 full-body scanners, 
located in Havana. Is that correct?
    Mr. Fujimara. We can't discuss in this open setting the 
specifics of what equipment or what capabilities are in Cuba 
right now.
    Mr. Ratcliffe. Okay.
    Mr. Fujimara. But I think focusing on technology is 
focusing on one element of a security system that involves 
people, processes, and technology.
    Mr. Ratcliffe. Well, that is why I am including all of 
these different questions that we have about what we know that 
they are not able to obtain, what we know that they--we--they 
can't purchase from America, what we are not able to provide to 
them. So if the Obama administration is looking to authorize--
and I understood it to be 10 LPDs, or last points of departure, 
airports in Cuba; there is some discussion about whether it may 
be 7 or 6. But if they are lacking this equipment to the tune 
that we believe that they may, what--how does TSA plan to 
certify that Cuba has the necessary equipment and personnel to 
detect potential threats to the United States?
    Mr. Fujimara. Sir, we send down teams of TSA inspectors on 
an annual basis to Cuba to look at these airports that are 
currently operating as last-point-of-departure airports. They 
look at people, process, and technology against the 
international standards set out by ICAO. They are 
professionals. They have 3 years----
    Mr. Ratcliffe. So let me stop you, because I heard you say 
that before and that they meet international standards and you 
send them down annually--``annually'' meaning once a year, 
right? Right?
    Mr. Fujimara. Yes, sir, but----
    Mr. Ratcliffe. Okay. So is TSA going to certify the 
standards that the Cuban government is employing with respect 
to airport safety? You send inspectors down. Are they going to 
provide some sort of certification?
    Mr. Fujimara. Sir, it is not a certification per se, but it 
is an assessment that they meet international standards and 
that service can proceed.
    Mr. Ratcliffe. Okay.
    Let me shift to you, Mr. Wagner. According to the State 
Department, Cubans continue to favor land-based entry at U.S. 
points of entry, particularly through Mexico. What is the 
current policy for Cubans that enter the United States without 
proper documentation at points of entry?
    Mr. Wagner. Well, as per the Cuban Adjustment Act, we would 
parole them into the United States and if there is any, say, 
National security derogatory-type information or if there is 
any type of risk we have the option of having them detained 
until a hearing before a judge.
    Mr. Ratcliffe. Okay. So what will the policy of the United 
States be if a Cuban immigrant arrives at an airport without 
proper documentation?
    Mr. Wagner. It is the same policy.
    Mr. Ratcliffe. Okay. So do you have any--I am from a border 
State; I am from Texas. Do you have an opinion as to what you 
expect to see in terms of the number of asylum declarations at 
points of entry based on this shift in policy?
    Mr. Wagner. We are seeing the numbers increase from last 
year to this year.
    Mr. Ratcliffe. Okay.
    I see my time is expired. I yield back.
    Mr. Katko. Thank you, Mr. Ratcliffe.
    The Chair now recognizes Mr. Perry for 5 minutes of 
questioning.
    Mr. Perry. Thank you, Mr. Chairman, for indulging me and 
for providing this privilege for me to sit on the panel here.
    Mr. Mizell, in an April 12 letter I sent to the Secretary 
regarding Cuba and aviation security I asked about the goals of 
annual visits by Cuban officials to the United States and to 
our airports, which have been occurring since 2010. In its 
response to my letter DHS stated the visits involved the 
exchange of technical information on aviation security and best 
practices.
    ``Exchange of technical information.'' My concern and 
curiosity in speaking with you is about what we are giving to 
them; not what we are getting from them particularly, but what 
we are giving to them. Given Cuba's history as a 
counterintelligence state, that is--this is extremely 
concerning to me.
    As you know, Cuba is ruled by a government hostile to the 
United States with close relationships to other U.S. 
adversaries, including China, Russia, and North Korea. Indeed, 
Russia and China both have listening posts, some of the largest 
in the world if not the largest on the planet, at Lourdes and 
Bejucal. I think personally it is outrageous to think that DHS 
is sharing our information with Cuba when they know they will 
very likely share it, if not just plain give it to our 
adversaries.
    So my questions are these: What exactly, precisely, 
specifically constitutes technical information that we shared 
with the Cubans? Was any information shared regarding security 
operations or security equipment? Was any of this information 
Classified, Confidential, Sensitive but Unclassified, Law 
Enforcement Sensitive, For Official Use Only, or Sensitive 
Security Information? What assurance do we have as Americans 
that this information won't or hasn't already been leaked to 
our adversaries?
    Mr. Mizell. Let me start by saying the reciprocal visits 
with the Cuban government representatives began in 2011. We do 
it annually. Part of the reason we do that is because we have 
free access into Cuba to conduct required airport assessments 
and air carrier inspections.
    Without those reciprocal visits, I am not sure we would 
have this access. So it is important to have those visits.
    As far as the visits go, we take them to different U.S. 
airports, normally in the South or East. We give them an 
opportunity to observe our checkpoints and how we operate them, 
the throughput that occurs.
    We don't share any SSI information with them. It is a 
sharing of best practices, basically.
    Mr. Perry. So let me ask you this: Would you--if I were to 
ask you, since we are sharing, right? Sharing is a two-way 
street, right? I give you something; you give me something. 
That is sharing or exchanging, which the terminology 
``exchange'' is used here as opposed to ``share.''
    Would you be able to tell me what we, as the United States, 
have gotten from those visits that we wouldn't have known 
already--that we wouldn't know already? If you know, sir, 
please let me know.
    Mr. Fujimara. Sir, one of the key elements of flights 
coming to the United States involve Secure Flight information. 
This is the data transmission of passenger manifests that come 
from all flights, including crew, coming from Cuba. So we get 
that information from Cuba for the public charters that are 
coming to us.
    So this is information that we are getting that is fed into 
Customs and Border Protection and is acted upon----
    Mr. Perry. I understand that, but, see, I feel like we have 
got this reciprocal agreement where we should get something 
and, of course, they want something, right? So we should be 
able to be getting something that we can't otherwise get. In 
other words, what is in it for the United States? Because we 
are going to give up some of our information.
    Best practices, like for me, quite honestly, as a layman 
who has just used this system and I have never worked in the 
system, but what best practices is Cuba using that we need to 
get to use in the United States?
    Mr. Fujimara. Cuba is a member of ICAO, the 191 members.
    Mr. Perry. Right.
    Mr. Fujimara. As a member of the international aviation 
community, we have a shared goal in security of our passengers 
around the world reaching their destination safely. That is a 
shared goal we have with the Cubans and the 189 other members.
    Mr. Perry. I understand the shared goal. It says ``best 
practices,'' and it says that we talked about technical 
information on security and--on aviation security and best 
practices.
    I want to know some examples. I want to know, what we are 
getting that we wouldn't get otherwise? We are giving them 
access to our airports--New York, JFK, and Miami, Fort 
Lauderdale, and Tampa, Atlanta. It is all listed here and when 
the dates they came to America.
    They are interested in collecting information. I am not 
dumb and neither are they. They know we are interested in 
collecting information, right? We get this.
    But we are America. We are the free country. They are the 
communist country. I want to make sure that we are not giving 
them something, and then certainly when we are not getting 
anything in return.
    Quite honestly, you haven't--neither of you have allayed my 
fears and my concerns that that has happened.
    Quite honestly, sir, Mr. Mizell, I asked about Classified, 
Confidential, Sensitive But Unclassified, Law Enforcement 
Sensitive, For Official Use Only, or Sensitive Security 
Information. Does this need another setting to discuss that? 
Because you didn't enumerate any of those. You didn't just say, 
``No, none of those are included,'' which would be an answer 
that would be great to hear but I am concerned it is not.
    Mr. Mizell. None of those have been included on their 
visits to the United States.
    Mr. Perry. None of those were included on their visits to 
the United States.
    Mr. Mizell. Yes, sir.
    Mr. Perry. They have none of that information.
    Mr. Mizell. Correct.
    Mr. Perry. All right.
    Thank you, Mr. Chairman. I yield.
    Mr. Katko. Thank you, Mr. Perry.
    A couple quick follow-up questions for--Mr. Fujimura, you 
mentioned the ICAO standards as something that gives you some 
sort of comfort, I guess, in the airport quality of their 
security. Is that correct?
    Mr. Fujimara. Sir, under 44907 it is based in statute that 
this is the basis. The ICAO--are what we begin our airport 
assessment program from. So it is encapsulated in statute.
    Mr. Katko. Correct. I understand that. So just so I 
understand, do you know if Sharm el-Sheikh or Mogadishu were 
airports that met the ICAO's minimum standards?
    Mr. Fujimara. They are not last-point-of-departure 
airports, sir, so I do not know definitively whether they met 
them or not, sir.
    Mr. Katko. Okay.
    Now, Mr. Mizell, a couple quick questions. I understand you 
are saying what you told us in a secure setting was sensitive, 
and of course, I take issue with that. Let me ask you something 
a different way and see if you can't get to the inquiry here.
    How many of those last-point-of-departure airports have you 
visited?
    Mr. Mizell. There are 7 last-point-of-departure airports, 6 
of which are operational. I visited all of them.
    Mr. Katko. Okay. The seventh one that is not operational, 
did you visit that, as well?
    Mr. Mizell. Yes.
    Mr. Katko. Okay. I want to ask you about what you 
personally observe when you are going through these airports, 
if I may.
    The first thing is, in any of those 7 airports did you 
observe any explosive trace detection equipment anywhere?
    Mr. Mizell. Again, you have asked this question previously, 
sir, about equipment that is available. It is not something we 
want to discuss in this setting.
    Mr. Katko. I understand. I am asking based on your personal 
observations, not what is considered Security Sensitive. So the 
question is, what--based on your personal observations, did you 
observe any explosive trace detection equipment at any of these 
airports?
    Mr. Mizell. Again, sir, I am not going to discuss that in 
an open meeting like this.
    Mr. Katko. Are you saying your personal observations are 
sensitive and secure, SSI?
    Mr. Mizell. I am saying that the question you are asking 
about that is sensitive with regard to equipment.
    Mr. Katko. From a Classified setting or something? I just 
want to understand what security setting you are saying--
secure--security clearance you need to have before I can 
discuss this. I am not asking about what you told us in a 
secure setting; I am asking based on your personal 
observations.
    Mr. Fujimara. Sir, if I may?
    Mr. Katko. Yes, sir.
    Mr. Fujimara. So on those travels Mr. Mizell would have 
been traveling on an official passport in his official 
capacities as a TSA representative whose portfolio includes 
Cuba. So his observations would be part of a Government effort 
there, as it were. So again, I would again ask that we could 
take this to--if we could take this to a different setting and 
to articulate the--more details for you.
    Mr. Katko. Just so I understand, so you are not going to 
answer the question in this setting. Is that correct?
    Mr. Mizell. Is that to me, sir?
    Mr. Katko. Yes.
    Mr. Mizell. Yes, sir.
    Mr. Katko. Okay. Now, would that be the same question with 
respect to body scanners, whether or not there are body 
scanners in any of these 7 airports you visited? Would you give 
me the same answer that you are not going to answer it in this 
setting?
    Mr. Mizell. That is correct, sir.
    Mr. Katko. Okay. Would that be the same answer that you 
would give with respect to the 7 airports that you visited 
whether there is any document verification equipment at any of 
these airports?
    Mr. Mizell. That is correct, sir.
    Mr. Katko. Okay. Just so I am clear--and I am not meaning 
to quarrel, but just want to understand--what security level 
are you saying applies here?
    Mr. Fujimura, you can answer that, or Mr. Mizell can.
    Mr. Fujimara. Sir, the presence of security equipment and 
procedures is SSI.
    Mr. Katko. Okay. So you are saying this is all SSI.
    Mr. Fujimara. I would want to go back and review with my 
subject-matter experts on security back at headquarters, but 
that is my understanding. But I stand open to be corrected by 
true experts in----
    Mr. Katko. Okay. Let's handle it this way then, since we 
are not going to get to the bottom of this today. Why don't we 
do this: Why don't you, if you could, sir, within 10 days, 
consult with them and then give us an answer of whether or not 
you believe each of those questions are--warrant SSI label on 
them. Then if they do not, then I ask that you respond to those 
questions in writing. Will that be fair enough, sir?
    You nod your head, so that means yes?
    All right. Thank you very much.
    Mr. Fujimara. Sorry we have to.
    Mr. Katko. No, it is quite all right. I understand.
    All right. Miss Rice, do you have any further questions?
    Miss Rice. No.
    Mr. Katko. Okay.
    Mr. Perry, do you have any further questions?
    Mr. Perry. I do, if--just to finish up, if you will allow, 
sir, Mr. Chairman.
    Mr. Katko. Yes, sir.
    Mr. Perry. Mr. Mizell, my first question was what exactly 
constitutes ``technical information'' that was shared with the 
Cubans? Was any information shared regarding security 
operations or security equipment--``technical information''?
    Mr. Mizell. Nothing was shared with respect to technical 
equipment.
    Mr. Perry. In the memorandum of understanding under J it 
says: To coordinate in the area of transportation security the 
screening of cargo, travelers, and baggage, and the design of 
secure, efficient inspection facilities at ports and airports.
    Anything regarding design other than the layout? When you 
say ``design'' I just want to make sure what we are 
contemplating.
    Mr. Mizell. No, sir. The design is what you would see 
walking through the airport at the security checkpoint.
    Mr. Perry. I yield.
    Mr. Katko. Thank you, Mr. Perry.
    Miss Rice, you have no further questions?
    Okay. Thank you.
    I would like to thank you for your testimony today. Members 
of the committee may have some additional questions for the 
witnesses, and I would ask you to respond to these in writing.
    Pursuant to committee Rule VII(e), the hearing record will 
be held open for 10 days.
    But, Mr. Fujimura, I would ask that you get to me on those 
specific questions. We will delineate them in writing so you 
have them. You can tell us which ones you believe are of an SSI 
nature.
    Without objection, the subcommittee stands adjourned. Thank 
you.
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Questions From Chairman John Katko for Seth Stodder
    Question 1. Why did the Department designate 3 witnesses that had 
never before traveled to Cuba on official business to testify before 
the committee, and then only send Mr. Mizell, who has traveled to Cuba 
over 30 times in the past 5 years, once the committee expressed its 
intention to issue a subpoena?
    Answer. Response was not received at the time of publication.
    Question 2. In addition, the committee requests the travel records 
of any official travel to Cuba made by Deputy Secretary Mayorkas and 
all other DHS and TSA employees.
    Answer. Response was not received at the time of publication.
           Question From Chairman John Katko for Larry Mizell
    Question. Why were committee Members and staff not informed that 
information regarding airport equipment and operations in Cuba had been 
deemed SSI in the 2 briefings on March 7 and March 17, 2016? Were you 
aware that this information was SSI at the time of the respective 
briefings?
    Answer. Response was not received at the time of publication.
          Questions From Chairman John Katko for Paul Fujimura
    Question 1. In its annual budget request to Congress, the 
Department makes available the quantity, model, and use of any airport 
screening or security equipment it intends to procure. It makes this 
information available again in TSA's Strategic Five-Year Technology 
Investment Plan for Aviation Security. How is it that information on 
our own security capabilities is not deemed SSI, but information on a 
foreign airport, which can be obtained through basic observation is 
deemed SSI?
    Question 2. Who was involved in the directives to the witnesses to 
claim in their testimony to the committee that responses to Members 
questions is SSI but that the same information previously discussed in 
2 separate briefings was not deemed to contain SSI?
    Answer. TSA's Strategic Five-Year Technology Investment Plan for 
Aviation Security contains the total number of equipment and airports 
where particular technologies are deployed. The report does not 
disclose details on performance specifications, detection capability, 
vulnerabilities, specific location, or procedures, as those are 
Sensitive Security Information (SSI) categories, or National security 
Classified information. SSI is information that, if publicly released, 
would be detrimental to transportation security, as defined by Federal 
regulation 49 C.F.R. Part 1520. Information on security vulnerabilities 
observed during TSA airport assessments and/or air carrier assessments, 
including those on Cuba's capabilities, is SSI. TSA values its strong 
relationships with our foreign partners. Releasing another country's 
information regarding their aviation security capabilities would be 
detrimental to the bilateral relationship, and would give would-be 
adversaries sensitive security information.
    The disclosure and handling of SSI are governed by U.S. regulation 
49 C.F.R. Part 1520. All TSA employees and contractors are considered 
covered persons under the SSI regulation, and have an obligation to 
protect the information from unauthorized disclosure. TSA is authorized 
to share SSI information with Members of Congress and their staff in 
meetings closed to the public. TSA witnesses in this testimony 
fulfilled their obligation to not share SSI in a public forum.
    Question 3. You testified that TSA inspectors have a detailed list 
of security protocols that they look for when making the determination 
as to whether a foreign airport meets International Civil Aviation 
Organization (ICAO) protocols. Can TSA provide a copy of this list to 
the committee?
    Answer. The job aid that the inspectors use has been provided under 
separate cover in response to your letter to the Secretary on May 18, 
2016.
    Question 4. How many explosive trace detection systems do Cuba's 10 
international airports possess? Where are they located? By who are they 
manufactured and what is the model?
    Question 5. Based on the most recent data available for each LPD, 
are there any airports currently designated as LPDs that do not have 
explosive trace detection technology? If so, please list them.
    Answer. This response is SSI and has been provided under separate 
cover in response to your letter to the Secretary on May 18, 2016.
    Question 6. How many full body scanners do Cuba's 10 international 
airports possess? Where are they located? By who are they manufactured 
and what is the model?
    Answer. This response is Sensitive Security Information and has 
been provided under separate cover in response to your letter to the 
Secretary on May 18, 2016.
    Question 7. How many canines trained in explosive detection do 
Cuba's 10 international airports possess? What type of training do they 
receive? Where are they located?
    Answer. This response is Sensitive Security Information and has 
been provided under separate cover in response to your letter to the 
Secretary on May 18, 2016.
    Question 8. What is the content and duration of the training that 
Cuban aviation security workers receive?
    Answer. This response is Sensitive Security Information and has 
been provided under separate cover in response to your letter to the 
Secretary on May 18, 2016.
    Question 9. Through what systems and against what lists are Cuban 
aviation workers vetted?
    Answer. This response is Sensitive Security Information and has 
been provided under separate cover in response to your letter to the 
Secretary on May 18, 2016.
    Question 10. According to the accord signed between the 
administration and the Cuban government, regularly-scheduled commercial 
air service routes will be opened between the United States and all 10 
of Cuba's international airports. Presently, only 7 of Cuba's 
international airports have been designated as LPDs. What is the time 
line on the inspections for the remaining 3?
    Answer. The Transportation Security Administration (TSA) is 
currently working with the Cuban government to arrange dates for 
assessing the 3 possible additional Last Point of Departures (LPD) in 
Cuba: Varadero (VRA), Cayo Largo (CYO), and Cayo Coco (CCC). The Cubans 
are aware that the assessments must take place prior to TSA approval of 
an LPD location.
    Question 11. When conducting inspections at LPDs around the world, 
what information do inspectors gather? Can TSA provide the committee 
with a list of everything they inspect for and what reasons would 
prompt TSA to require air carriers to implement extra layers of 
security at such an airport, or revoke LPD designation entirely?
    Answer. The job aid that the inspectors use has been provided under 
separate cover in response to your letter to the Secretary on May 18, 
2016. Vulnerabilities identified by the TSA teams via the job aid could 
lead to mitigation measures such as Security Directives for domestic 
carriers or Emergency Amendments for foreign carriers. Further, TSA has 
an established process for ensuring the mitigation of vulnerabilities 
at an airport, up to and including cessation of service. Currently, 
each of the 7 Last Point of Departures (LPDs) in Cuba meet all 
International Civil Aviation Organization (ICAO) security standards. 
For the last 6 years no Cuban LPD airport has been subjected to 
mitigation measures that required Security Directives or Emergency 
Amendments.
    Question 12. Why were committee Members and staff not informed that 
information regarding airport equipment and operations in Cuba had been 
deemed SSI in the 2 briefings on March 7 and March 17, 2016? Were you 
aware that this information was SSI at the time of the respective 
briefings?
    Answer. As the Transportation Security Administration's (TSA) 
witnesses stated in the hearing, the specific vulnerabilities and 
capabilities at Cuban airports constitute Sensitive Security 
Information (SSI). TSA shared this information in 2 previous closed-
door briefings with committee staff and with Members of Congress, as 
Members and their staff are covered persons entitled to receive SSI.
    An SSI advisement before a briefing or discussion in a closed 
setting is typically made for newly-covered persons unfamiliar with 
SSI. However, TSA routinely provides SSI verbally and in writing to the 
committee. Additionally, TSA routinely clarifies whether information 
may be made public, and portion marks information that is SSI at the 
committee's request.
           Questions From Chairman John Katko for John Wagner
    Question 1. Can you please explain the nature of the negotiations 
that CBP has had with the Cuban government to date?
    Answer. A U.S. Customs and Border Protection (CBP) representative, 
as part of a Department of Homeland Security (DHS) delegation, traveled 
to Cuba in March 2016 to negotiate a Memorandum of Understanding (MOU) 
between DHS and the Ministry of the Interior and the Customs Office of 
the Republic of Cuba. It is the intent of the signatory agencies and 
their components to use this non-binding MOU to cooperate on the 
protection of travel and trade flows across air and maritime borders, 
as well as in citizen and transport security. The MOU was signed on May 
5, 2016.
    Question 2. A Memorandum of Understanding was signed May 5 by the 
Department that would establish a framework for cooperation and 
exchange of information, including information in advance of the risk 
represented by particular travelers, cargo, or conveyances in 
international transit. While every Cuban will have already visited a 
U.S. embassy for a visa and consular interview, what information do you 
believe will be gained by this information exchange?
    Answer. The administration's approach to U.S.-Cuban relations has 
produced several changes that have had the overall effect of 
reactivating authorized trade and travel flows across a border that was 
effectively dormant. One example is the non-binding U.S.-Cuba 
Memorandum of Understanding regarding scheduled and charter 
international air transportation between the 2 countries. Additionally, 
regulatory changes made by the Departments of the Treasury and Commerce 
to the sanctions regulations regarding Cuba have led to an increase in 
authorized travel to Cuba via private vessels and aircraft. We expect 
maritime travel to increase as the United States and Cuba authorize 
entities to carry passengers between the 2 countries by ship.
    In keeping with its statutory mandate to secure and manage our 
borders, and in support of foreign policy objectives set by the 
President and the Department of State, the U.S. Department of Homeland 
Security (DHS) has engaged with Cuban government agencies responsible 
for customs, immigration, and port security to reduce the risk of 
authorized trade and travel flows being exploited by terrorists, 
illicit migrants, or organized criminals. The non-binding Memorandum of 
Understanding between the U.S. Department of Homeland Security and the 
Cuban Ministry of Interior & Cuban Customs Office, signed on May 5, 
2016, is a significant first step in establishing a productive working 
relationship that will improve both countries' ability to manage our 
shared border. DHS seeks to work with foreign partner governments, 
especially those in close geographic proximity to the United States, to 
address threats and vulnerabilities as early and as far from the U.S. 
border as possible, sharing information to detect and interdict 
dangerous people and goods.
    DHS and its Cuban counterpart organizations intend to share 
relevant information that contributes to each country's ability to 
analyze the risk posed by people, things, and conveyances crossing our 
respective borders. As described in the DHS 2014 Quadrennial Homeland 
Security Review, DHS works to sort traveler and cargo traffic based on 
risk, expediting the movement of those found to be low-risk (including 
members of trusted traveler programs) so that limited resources can be 
focused on those deemed to be high-risk.
    DHS and its Cuban counterpart organizations are working to 
establish operational procedures for quickly requesting and sharing 
appropriate information on people, cargo, and conveyances deemed to be 
high-risk, especially those suspected of criminal activity. Some of the 
most valuable advance information that may be shared between DHS and 
its Cuban counterparts may pertain to citizens and nationals of third 
countries rather than citizens of our own. For example, DHS and Cuban 
agencies have worked together to validate Cuban identity documents used 
by third country nationals in fraudulent attempts to gain access to 
U.S. immigration benefits. When citizens of our own countries apply for 
visas or travel authorization to enter the other country, a strong 
working relationship would contribute to our ability to uncover fraud 
or criminal history not revealed by the applicant. The United States 
and Cuba have also notified each other on several occasions when 
individuals suspected of criminal activity in one country attempt to 
travel to the other, contributing to a more informed immigration 
decision. Advance information about cargo and conveyances applying for 
entry into each other's countries is useful as well in detecting 
suspicious or high-risk activity that may be related to drug 
trafficking, money laundering, or other malfeasance. The United States 
routinely shares this type of information with the governments of 
countries across the Western Hemisphere, particularly with those that 
share a land or maritime border with our country. The Memorandum of 
Understanding between DHS and the Cuban Ministry of Interior and Cuban 
Customs Office will help ensure that authorized trade and travel flows 
between our countries are secure, regardless of the economic, social, 
or political changes that may occur in the years to come.
    Question 3a. When a preclearance agreement was established in Abu 
Dhabi, UAE, CBP billed it as a way to leverage information sharing and 
law enforcement exchanges they would otherwise not have access to. 
Preclearance has been previously considered to be the gold standard of 
pushing the border outward by CBP.
    Has there been any consideration given to opening CBP preclearance 
in Cuba?
    If no, why not?
    If yes, what is the status of those discussions?
    Answer. To date, CBP has not received any inquiries from Cuban 
stakeholders, nor have we participated in any discussions regarding 
possible preclearance expansion to Cuba. During the fiscal year 2016 
open period, from May 15 to August 1, 2016, interested foreign airport 
stakeholders, including those within Cuba, had the opportunity to 
submit letters outlining their interest in preclearance expansion. No 
Cuban airport submitted a letter of interest. CBP will now administer a 
process to evaluate and prioritize potential preclearance locations.
    Question 3b. What about consideration of programs like the 
Immigration Advisory Program or Joint Security Program, which has 
established CBP partnerships in many Latin American countries?
    Answer. The Joint Security Program (JSP) is a component of CBP's 
Immigration Advisory Program (IAP). JSP officers work jointly with host 
country law enforcement officials to disrupt terrorist travel and 
interdict the smuggling of narcotics, bulk currency, illegal migrants, 
and fugitives. The JSP in Mexico and Panama is successful because of 
the willingness of these countries to partner with CBP to jointly 
engage potentially high-risk travelers. In order to assess the 
viability of a potential JSP expansion to Havana, CBP would first need 
to assess the willingness of the Cuban government to grant access for 
CBP to engage travelers in the sterile airside environment and address 
Cuban sovereignty concerns regarding the direct engagement of Cuban 
citizens.
    Question 3c. Which program would help CBP the most in conducting 
its screening and travel facilitation mission?
    Answer. CBP makes use of its various authorities and programs to 
serve its screening and facilitation missions. If vetting uncovers 
derogatory information or other risks pertaining to a traveler 
intending to fly to the United States, current programs exist to 
support targeting efforts and address these issues overseas. In order 
of increasing capability, these are: The Regional Carrier Liaison 
Groups (RCLG); the Immigration Advisory Program (IAP) and the Joint 
Security Program (JSP); and preclearance. Initiating preclearance 
operations and IAP/JSP are predicated, among other things, on 
successful negotiations between DHS and the host country.
    The RCLGs constitute CBP's first-level capability to address and 
intercept risks before they reach the United States. CBP Officers 
supporting the RCLGs are not located overseas; however, the RCLGs 
utilize established relationships with commercial airlines to recommend 
that passengers who may pose a security threat, have fraudulent 
documents, or are otherwise inadmissible, do not board flights to the 
United States.
    Both IAP and JSP officers work in plainclothes and are posted 
overseas to coordinate closely with the border security agencies of the 
host country and commercial airlines in order to recommend the denial 
of boarding to high-risk subjects. IAP teams work collaboratively to 
identify high-risk and terrorist watch-listed travelers with targeting 
support from the National Targeting Center (NTC), and/or conduct an 
assessment of passengers and their documentation. JSP is a component of 
IAP. JSP officers work jointly with host country law enforcement 
officials to disrupt terrorist travel and interdict the smuggling of 
narcotics, bulk currency, illegal migrants, and fugitives.
    Question 4. What is the current policy for Cubans that enter the 
United States without proper documentation?
    What will the policy of the United States be if a Cuban immigrant 
arrives at a United States airport without proper documentation or with 
falsified documentation?
    Answer. A commercial air carrier that allows any alien boarding 
from a foreign country without appropriate travel documents for entry 
into the United States is subject to a $4,300 fine under the 
Immigration and Nationality Act.
    Further, under long-standing policies implementing the Cuban 
Refugee Adjustment Act of 1966 (Cuban Adjustment Act), Pub. L. No. 89-
732, as amended, natives and citizens of Cuba who arrive in the United 
States without proper documentation may be paroled into the United 
States to allow them to apply under the Cuban Adjustment Act for 
adjustment of status to that of a lawful permanent resident (LPR) after 
1 year of physical presence. Applicants for adjustment of status under 
the Cuban Adjustment Act must demonstrate that they are admissible to 
the United States.
    As stated above, any carrier that brings a Cuban without proper 
documentation is subject to $4,300 fine. Additionally, under long-
standing policy a Cuban citizen or national who arrives at a U.S. port 
of entry without proper documentation may be considered for parole into 
the United States to allow the individual to seek LPR status under the 
Cuban Adjustment Act. A Cuban citizen or national who can demonstrate 
that he or she has been admitted or paroled into the United States and 
has been physically present in the United States for 1 year or more is 
eligible to apply with USCIS (or, if in removal proceedings, with the 
immigration judge) for LPR status under the Cuban Adjustment Act. 
Applicants for adjustment of status under the Cuban Adjustment Act must 
demonstrate that they are admissible to the United States.
    Question 5. In 2015 more than 31,000 Cubans entered the United 
States at a port of entry on the border with Mexico, compared to just 
over 3,400 who migrated via the maritime routes of the Florida straits. 
With the ability for Cubans to increasingly obtain exit visas, to 
travel to the United States or another country, do you expect the 
number of asylum declarations at ports of entry to continue to 
increase?
    Answer. Yes. Absent measures to reduce the incentives for Cuban 
migration, the increased flow of Cubans and subsequent requests for 
asylum or other iimmigration relief will likely continue. This increase 
in migration to the United States is likely driven by the current 
commonly-held belief that the window of opportunity to take advantage 
of the Cuban Adjustment Act is closing. Eased restrictions by Cuba on 
its citizens' ability to leave the country, permissive visa and 
migratory policies in transit countries, and disillusion with Cuban 
government policies are additional factors contributing to the increase 
in migration. Many Cuban migrants are now able to afford air travel, 
due to remittances from the United States and the recent permission to 
sell personal property held in Cuba. The most common pattern of Cuban 
migration to the United States is via air travel to Mexico or South 
America and onward to the U.S. Southern Border via land routes. The 
ability of Cubans to legally present themselves at a U.S. port of entry 
along the land border makes Cuban migrants prefer the new and safer 
routes of migration to the United States via South and Central America 
over riskier maritime routes to Florida.
    Question 6. Why did the Department designate 3 witnesses that had 
never before traveled to Cuba on official business to testify before 
the committee, and then only send Mr. Mizell, who has traveled to Cuba 
over 30 times in the past 5 years, once the committee expressed its 
intention to issue a subpoena?
    Answer. As indicated in previous correspondence from the Department 
of Homeland Security (DHS) regarding the hearing, DHS provided 
witnesses to the committee who were able to speak to the wide range of 
security activities and issues regarding Cuba. DHS's witness from the 
Office of Policy, U.S. Customs and Border Protection (CBP), and 
Transportation Security Administration (TSA) were all senior executives 
able to address policy-level and operational aspects of these issues.
    Though some of these witnesses had never traveled to Cuba on 
official business, the breadth of their security responsibilities 
within DHS extends to many nations and activities world-wide, including 
Cuba. Given the wide scope of the hearing as articulated by committee 
staff, it was necessary to provide senior witnesses that could speak 
not only to security activities and policies relating to Cuba, but also 
to the application of those same activities and policies globally.
    The Department chose TSA assistant administrator for the Office of 
Global Strategies, Mr. Paul Fujimura, because he is the senior TSA 
executive responsible for developing and promoting the implementation 
of effective transportation security world-wide, while ensuring 
compliance with international and TSA standards. He oversees TSA 
representatives (TSARs) who work in conjunction with host governments 
and regional organizations, as well as Transportation Security 
specialists (TSSs) or inspectors, who conduct assessments of airports 
and inspections of carriers to ensure compliance with international 
standards. TSARs and TSSs work in separate divisions within the Office 
of Global Strategies under Mr. Fujimura's leadership. As the senior 
executive responsible for all of these functions, Mr. Fujimura was the 
most appropriate witness to address TSA's role regarding transportation 
security questions related to Cuba.
    As DHS's assistant secretary for border, immigration, and trade 
policy, Mr. Seth Stodder plays a crucial role in coordinating the 
security efforts of Departmental components, like CBP and TSA, for Cuba 
and countries world-wide. This has included the DHS Office of Policy's 
lead role in negotiations that developed a law enforcement cooperation 
Memorandum of Understanding between DHS and the Ministry of the 
Interior and the Customs Office of the Republic of Cuba.
    CBP's witness, Deputy Assistant Commissioner John Wagner, Office of 
Field Operations, was specifically requested by the committee for this 
hearing. Though Mr. Wagner had never visited Cuba on official business, 
his broad responsibilities uniquely suit him to speak to key elements 
related to the hearing, including fraudulent document detection at U.S. 
ports of entry, foreign fighter travel prevention, impostor detection 
at U.S. ports of entry and 1:1 facial recognition pilots, pre-departure 
vetting and CBP's role in visa-vetting, and CBP's Preclearance and 
Immigration Advisory Programs.
    Question 7. In addition, the committee requests the travel records 
of any official travel to Cuba made by Deputy Secretary Mayorkas and 
all other DHS and TSA employees.
    Answer. The table below lists trips to Cuba by DHS employees in the 
last year, from June 2015 to June 2016. Please note specific 
information related to the number and type of employees traveling with 
the President to support the Secret Service protective mission is Law 
Enforcement Sensitive and not included in this response. Also, in 
keeping with typical Executive Branch practice, the names of employees 
GS-14 and below, or the equivalent in other pay systems, are not 
included, with the exception of Mr. Mizell.

----------------------------------------------------------------------------------------------------------------
                                                                                            Arrival    Departure
              Component                        Last Name                First Name           Date        Date
----------------------------------------------------------------------------------------------------------------
CBP..................................  NUNEZ-NETO..............  BLAS...................    10/27/15    10/30/15
CBP..................................  NUNEZ-NETO..............  BLAS...................    03/09/16    03/11/16
CBP..................................  NUNEZ-NETO..............  BLAS...................    05/16/16    05/18/16
CBP..................................  GS-12 Employee..........  .......................    11/30/15    12/04/15
CBP..................................  GS-13 Employee..........  .......................    03/19/16    03/22/16
CBP..................................  GS-12 Employee..........  .......................    01/24/16    01/29/16
CBP..................................  GS-12 Employee..........  .......................    04/11/16    04/16/16
CBP..................................  DI NUCCI................  RICHARD................    11/30/15    12/04/15
CBP..................................  KERLIKOWSKE.............  R. GIL.................    10/27/15    10/30/15
CBP..................................  GS-12 Employee..........  .......................    01/24/16    01/29/16
CBP..................................  GS-14 Employee..........  .......................    03/19/16    03/22/16
DHS-HQ...............................  BERSIN..................  ALAN DOUGLAS...........    05/15/16    05/17/16
DHS-HQ...............................  GS-05 Employee..........  .......................    10/26/15    10/30/15
DHS-HQ...............................  KING....................  MATTHEW HARRISON.......    03/09/16    03/11/16
DHS-HQ...............................  GS-14 Employee..........  .......................    10/26/15    10/30/15
DHS-HQ...............................  GS-14 Employee..........  .......................    10/25/15    10/30/15
DHS-HQ...............................  MAYORKAS................  ALEJANDRO..............    10/25/15    10/30/15
DHS-HQ...............................  MAYORKAS................  ALEJANDRO..............    05/15/16    05/17/16
DHS-HQ...............................  SHAHOULIAN..............  DAVID..................    05/15/16    05/17/16
DHS-HQ...............................  TANUVASA................  SAMITA.................    05/15/16    05/17/16
DHS-HQ...............................  Lt. Commander...........  .......................    10/26/15    10/30/15
DHS-HQ...............................  Lt. Commander...........  .......................    05/15/16    05/17/16
DHS-HQ...............................  PERALES HERNANDEZ.......  JOSE R.................    10/29/15    11/04/15
DHS-HQ...............................  SILVERS.................  ROBERT PETER...........    10/26/15    10/30/15
DHS-HQ...............................  GS-11 Employee..........  .......................    03/09/16    03/11/16
DHS-HQ...............................  GS-14 Employee..........  .......................    05/15/16    05/17/16
DHS-HQ...............................  Lt. Commander...........  .......................    05/15/16    05/17/16
FEMA.................................  GS-13 Employee..........  .......................    01/05/16    01/15/16
ICE..................................  GS-12 Employee..........  .......................    06/16/15    06/19/15
ICE..................................  GS-12 Employee..........  .......................    07/14/15    07/17/15
ICE..................................  GS-13 Employee..........  .......................    09/17/15    09/17/15
ICE..................................  GS-12 Employee..........  .......................    10/14/15    10/23/15
ICE..................................  GS-13 Employee..........  .......................    01/24/16    02/02/16
ICE..................................  GS-13 Employee..........  .......................    01/24/16    02/03/16
ICE..................................  HOLT....................  JAMIE..................    02/20/16    02/26/16
ICE..................................  SV-04 Employee..........  .......................    02/20/16    02/24/16
ICE..................................  GS-14 Employee..........  .......................    02/29/16    03/09/16
ICE..................................  GS-11 Employee..........  .......................    03/01/16    03/04/16
ICE..................................  GS-12 Employee..........  .......................    03/01/16    03/04/16
ICE..................................  GS-14 Employee..........  .......................    03/03/16    03/03/16
ICE..................................  MOORE...................  MARC...................    03/03/16    03/03/16
ICE..................................  GS-13 Employee..........  .......................    04/11/16    04/16/16
ICE..................................  GS-13 Employee..........  .......................    04/11/16    04/16/16
ICE..................................  GS-13 Employee..........  .......................    04/11/16    04/16/16
ICE..................................  GS-11 Employee..........  .......................    04/26/16    04/29/16
ICE..................................  GS-09 Employee..........  .......................    04/26/16    04/29/16
ICE..................................  GS-12 Employee..........  .......................    04/26/16    04/29/16
ICE..................................  GS-14 Employee..........  .......................    05/09/16    05/14/16
TSA..................................  MIZELL..................  LARRY..................     7/28/15     7/30/15
TSA..................................  MIZELL..................  LARRY..................     9/27/15     9/30/15
TSA..................................  MISHULOVICH.............  ELLIS..................    10/26/15    10/30/15
TSA..................................  MULLER..................  CHRIS..................    10/26/15    10/30/15
TSA..................................  MIZELL..................  LARRY..................    11/06/15    11/17/15
TSA..................................  J Band Employee.........  .......................    11/09/15    11/17/15
TSA..................................  I Band Employee.........  .......................    11/09/15    11/17/15
TSA..................................  I Band Employee.........  .......................    11/09/15    11/17/15
TSA..................................  MIZELL..................  LARRY..................    11/06/15    11/14/15
TSA..................................  MIZELL..................  LARRY..................    12/03/15    12/05/15
TSA..................................  MIZELL..................  LARRY..................    02/07/16    02/12/16
TSA..................................  J Band Employee.........  .......................    02/07/16    02/12/16
TSA..................................  I Band Employee.........  .......................    02/07/16    02/12/16
TSA..................................  I Band Employee.........  .......................    02/07/16    02/12/16
TSA..................................  MIZELL..................  LARRY..................    05/04/16    05/06/16
TSA..................................  J Band Employee.........  .......................    05/04/16    05/06/16
TSA..................................  MIZELL..................  LARRY..................    06/21/16    06/30/16
TSA..................................  J Band Employee.........  .......................    06/21/16    06/30/16
TSA..................................  I Band Employee.........  .......................    06/21/16    06/30/16
TSA..................................  I Band Employee.........  .......................    06/21/16    06/30/16
USCG.................................  INV4 Employee...........  .......................    08/13/15    08/15/15
USCG.................................  USCG Employee...........  .......................    08/13/15    08/16/15
USCG.................................  Commander...............  .......................    10/17/15    10/22/15
USCG.................................  GS-14 Employee..........  .......................    10/18/15    10/22/15
USCG.................................  UZMANN..................  JOSEPH.................    10/18/15    10/22/15
USCG.................................  USCG Employee...........  USCG Employee..........    12/14/15    12/17/15
USCG.................................  FEDOR...................  MARK J.................    12/14/15    12/17/15
USCG.................................  COGGESHALL..............  TODD M.................    12/14/15    12/17/15
USCG.................................  Commander...............  .......................    12/14/15    12/17/15
USCG.................................  Lieutenant..............  .......................    12/14/15    12/17/15
USCG.................................  Lt. Commander...........  .......................    02/21/16    02/28/16
USCG.................................  Lt. Commander...........  .......................    02/21/16    02/26/16
USCG.................................  Lt. Commander...........  .......................    03/20/16    03/25/16
USCIS................................  GS-13 Employee..........  .......................    02/22/16    03/11/16
USCIS................................  GS-13 Employee..........  .......................    10/28/15    10/28/15
USCIS................................  GS-12 Employee..........  .......................    02/22/16    03/11/16
USCIS................................  GS-14 Employee..........  .......................    12/06/15    12/13/15
USCIS................................  GS-12 Employee..........  .......................    11/01/15    11/28/15
USCIS................................  GS-12 Employee..........  .......................    11/01/15    11/28/15
USCIS................................  GS-12 Employee..........  .......................    11/01/15    11/28/15
USCIS................................  GS-14 Employee..........  .......................    03/30/16    04/05/16
USCIS................................  GS-14 Employee..........  .......................    10/17/15    10/20/15
USCIS................................  GS-13 Employee..........  .......................    08/09/15    09/04/15
USCIS................................  GS-12 Employee..........  .......................    07/24/15    08/26/15
USCIS................................  GS-12 Employee..........  .......................    08/09/15    09/04/15
USCIS................................  GS-13 Employee..........  .......................    08/09/15    09/04/15
USCIS................................  GS-12 Employee..........  .......................    06/02/15    06/18/15
USCIS................................  GS-14 Employee..........  .......................    06/15/15    06/19/15
USCIS................................  GS-14 Employee..........  .......................    08/26/15    09/04/15
USCIS................................  GS-12 Employee..........  .......................    06/26/15    07/16/15
USSS.................................  TRYON...................  STEWART................    05/16/16    05/18/16
USSS.................................  GS-14 Employee..........  .......................    05/11/16    05/14/16
USSS.................................  GS-09 Employee..........  .......................    02/23/16    02/25/16
USSS.................................  PRESIDENTIAL DETAIL.....  .......................    03/20/16    03/21/16
----------------------------------------------------------------------------------------------------------------

            Question From Chairman John Katko for Kurt Tong
    Question. How many applications for visas does the U.S. Embassy in 
Havana process per month? How many are granted? Do you anticipate an 
increase in applications once regularly scheduled commercial service 
begins?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
